 SIGAR1
                                                 Special Inspector General for
                                                  Afghanistan Reconstruction




                                                           SIGAR 14-20 Financial Audit



        USAID’s Community Development Program:
        Audit of Costs Incurred by Central Asia
        Development Group, Inc.




                                                            JANUARY
                                                                        2014
SIGAR 14-20 FA / Community Development Program
January 9, 2014

Dr. Rajiv Shah
Administrator
U.S. Agency for International Development

Mr. William Hammink
Mission Director for Afghanistan
U.S. Agency for International Development

This letter transmits the results of our audit of costs incurred by Central Asia Development Group, Inc. (CADG)
under a cooperative agreement with the U.S. Agency for International Development (USAID) supporting the
Community Development Program. 1 The audit covered the period March 12, 2009, through June 30, 2013,
and was performed by Mayer Hoffman McCann P.C. It covered $254,540,870 in expenditures.

The purpose of the Community Development Program (formerly called the Food Insecurity Response for Urban
Populations) was to provide temporary employment and income through Cash-for-Work programs 2 to targeted
individuals and communities in 16 vulnerable Afghan populations. The program was to serve both rural and
urban areas with the intended effects of reducing the impact of poverty and economic vulnerability that could
result in instability and insurgency.

The specific objectives of this financial audit were to
    •    render an opinion on the fair presentation of CADG’s Fund Accountability Statement; 3
    •    determine and report on whether CADG has taken corrective action on recommendations from prior
         audits or assessments
    •    identify and report on significant deficiencies, including any material weaknesses, in CADG’s internal
         control over financial reporting; and
    •    identify and report on instances of material noncompliance with terms of the award and applicable
         laws and regulations.
In contracting with an independent audit firm and drawing from the results of its audit, SIGAR is required by
auditing standards to provide oversight of the audit work performed. Accordingly, SIGAR reviewed Mayer
Hoffman McCann P.C.’s audit results and found them to be in accordance with generally accepted government
auditing standards.
Mayer Hoffman McCann P.C. found that except for $7,853,478 in questioned costs and $9,613 of lost interest
earnings, the Fund Accountability Statement presented fairly, in all material respects, revenues received and
costs incurred under the cooperative agreement. They identified no recommendations from prior audits or
assessments for follow-up or corrective action. Nevertheless, Mayer Hoffman McCann P.C. reported nine
internal control findings and five instances of noncompliance, which prompted the auditors to question



1 USAID agreement number 306-A-00-09-00511-00.
2 Cash-for-Work programs are short-term interventions used by humanitarian assistance organizations to provide temporary
employment in public projects (such as repairing roads, clearing debris, or re-building infrastructure) to the most vulnerable
segments of a population.
3 The Fund Accountability Statement is a special purpose financial statement that includes all revenues received, costs

incurred, and any remaining balance for a given award during a given period.
$7,853,478 in costs. These questioned costs included $563,477 in ineligible costs 4 and $7,290,001 in
unsupported costs. 5 See table 1 below.
Table 1 - Summary of Questioned Costs
                                                Questioned Costs
                 Category                                                       Ineligible               Unsupported
                                                      Total

 Labor Costs – Salaries and Wages                           $324,562                                              $324,562

 Allowances                                                    $2,863                                                $2,863

 Travel and Transportation                                $3,391,580                                            $3,391,580

 Program Costs – Cash-for-Work                            $1,443,266                   $445,808                   $997,458

 Other Direct Costs                                         $608,595                      $1,396                  $607,199

 Expensed Equipment and Vehicles                            $582,187                                              $582,187

 Overhead                                                 $1,500,425                   $116,273                 $1,384,152

 Totals                                                   $7,853,478                   $563,477                 $7,290,001

In addition, the audit found that CADG had not deposited advances of Federal funds into an interest bearing
account as required. This resulted in an estimated lost program income of $9,613.
Given the results of the audit, SIGAR recommends that the Mission Director of USAID/Afghanistan:

    1. Determine the allowability of and recover, as appropriate, $7,853,478 in questioned costs ($563,477
       ineligible and $7,290,001 unsupported) identified in the report.

    2. Recover the estimated $9,613 in lost interest revenue.

    3. Advise CADG to address the nine internal control findings identified in the report.
    4. Advise CADG to address the five compliance findings identified in the report.
We will be following up with your agency to obtain information on the corrective actions taken in response to
our recommendations.




John F. Sopko
Special Inspector General
 for Afghanistan Reconstruction
                                                                                                                 (F013)




4 Ineligible costs are costs that the auditor has determined to be unallowable. These costs are recommended for exclusion

from the Fund Accountability Statement and review by USAID to make a final determination regarding allowability.
5 Unsupported costs are those costs for which adequate or sufficient documentation necessary for the auditor to determine

the propriety of costs was not made available.




                                                           2
  CENTRAL ASIA DEVELOPMENT GROUP, INC.

     Financial Audit of Costs Incurred Under
 Cooperative Agreement No. 306-A-00-09-00511-00

For the Period March 12, 2009 through June 30, 2013
                    CENTRAL ASIA DEVELOPMENT GROUP, INC.

                          Financial Audit of Costs Incurred under
                     Cooperative Agreement No. 306-A-00-09-00511-00

                    For the Period March 12, 2009 through June 30, 2013


                                      Table of Contents


                                                                                    Page
Summary:
 Background                                                                           1
 Objectives, Scope and Methodology                                                    1
 Summary of Results                                                                   4
 Summary of CADG’s Responses to Findings                                              9
 Review of Prior Findings and Recommendations                                        10

Independent Auditors’ Report on Fund Accountability Statement                        11

Fund Accountability Statement                                                        14

Notes to Fund Accountability Statement                                               15

Report on Internal Control Over Financial Reporting Based on an Audit of the Fund    21
 Accountability Statement Performed in Accordance with Government Auditing
 Standards

Report on Compliance and Other Matters Based on an Audit of the Fund                 23
 Accountability Statement Performed in Accordance with Government Auditing
 Standards

Findings and Responses                                                               25

Appendices:
 Appendix A: Detailed Results for Finding 2013-3                                     59
 Appendix B: CADG’s Responses to Findings                                            61
 Appendix C: Auditor’s Rebuttal to CADG’s Responses to Findings                      84
                         CENTRAL ASIA DEVELOPMENT GROUP, INC.

                                Financial Audit of Costs Incurred under
                           Cooperative Agreement No. 306-A-00-09-00511-00

                         For the Period March 12, 2009 through June 30, 2013


SUMMARY

Background

On March 12, 2009, the United States Agency for International Development (USAID) awarded
Cooperative Agreement Number 306-A-00-09-00511-00 (Agreement) to Central Asia Development
Group, Inc. (CADG) in the amount of $10,000,000. The initial period of performance was through
September 8, 2009. The Agreement has been modified 21 times increasing the total amount of the
Agreement to $265,966,468.

The purpose of the Agreement was to conduct activities focused on supporting the Food Insecurity
Response for Urban Population (FIRUP) Program. The goal of the FIRUP Program was to relieve food
insecurity for five provinces in Afghanistan, and target individuals and communities with Cash-for-Work
(CFW) programs as an economic stimulus in the local communities. The five provinces were
Kandahar, Lashkar Gah, Tarin Kot, Gardez and Jalalabad.

Throughout the period of performance, the scope of the Agreement was changed through
modifications. In September 2009, the FIRUP Program period of performance was extended through
September 11, 2010 and the scope was increased to include nine new provinces. In August 2010, the
name of the FIRUP Program was changed to the Community Development Program (CDP), and two
new provinces were added. In February 2013, the CDP was extended to provide stabilization support
to counter-narcotics efforts in Kandahar, the Kandahar Helmand Power Project, and the Gardez-Khost
Road. In March 2013, Modification Number 21 extended the period of performance through August 31,
2013.

The Office of Special Inspector General for Afghanistan Reconstruction (SIGAR) contracted with Mayer
Hoffman McCann P.C. (MHM) to perform a Financial Audit of Costs Incurred under the Agreement for
the period March 12, 2009 through June 30, 2013.


Objectives, Scope and Methodology

Objectives

The objectives of the audit include the following:

   •   Internal Controls – Evaluate and obtain a sufficient understanding of CADG’s internal controls
       related to the award, assess control risk, and identify and report on significant deficiencies
       including material internal control weaknesses.

   •   Compliance – Perform tests to determine whether CADG complied, in all material respects, with
       the award requirements and applicable laws and regulations; and identify and report on
       instances of material noncompliance with terms of the award and applicable laws and
       regulations, including potential fraud or abuse that may have occurred.


                                                     1
                          CENTRAL ASIA DEVELOPMENT GROUP, INC.

                                Financial Audit of Costs Incurred under
                           Cooperative Agreement No. 306-A-00-09-00511-00

                          For the Period March 12, 2009 through June 30, 2013


SUMMARY

   •    Corrective Action on Prior Findings and Recommendations – Determine and report on whether
        CADG has taken adequate corrective action to address findings and recommendations from
        previous engagements that could have a material effect on the Fund Accountability Statement.

   •    The Fund Accountability Statement (FAS) – Express an opinion on whether the FAS for the
        award presents fairly, in all material respects, revenues received, costs incurred, items directly
        procured by the U.S. Government and fund balance for the period audited in conformity with the
        terms of the award and generally accepted accounting principles or other comprehensive basis
        of accounting.


Scope

The scope of this audit included all costs incurred during the period March 12, 2009 through June 30,
2013 under the Agreement. Our testing of overhead was limited to determining that the overhead was
calculated using the correct final negotiated overhead rate or provisional overhead rate, as applicable
for the given fiscal year, as approved by USAID.


Methodology

In order to accomplish the objectives of this audit, we designed our audit procedures to include the
following:

Entrance Conference

An entrance conference was held via conference call on July 1, 2013.                 Participants included
representatives of CADG, SIGAR and USAID.

Planning

During our planning phase, we performed the following:

   •    Obtained an understanding of CADG;
   •    Reviewed the Agreement and all modifications;
   •    Reviewed regulations specific to USAID that are applicable to the Agreement;
   •    Performed a financial reconciliation; and
   •    Selected samples based on our approved sampling techniques. According to the approved
        Audit Plan, we used the detailed accounting records that were reconciled to the financial
        reports, and based upon the risk assessment included as part of the approved Audit Plan, we
        performed data mining to assess individual expenditure accounts and transactions that were
        considered to be high or medium risk for inclusion in our test of transactions. If the population of


                                                     2
                         CENTRAL ASIA DEVELOPMENT GROUP, INC.

                               Financial Audit of Costs Incurred under
                          Cooperative Agreement No. 306-A-00-09-00511-00

                         For the Period March 12, 2009 through June 30, 2013


SUMMARY

       a given cost category tended to be large in number of transactions and homogeneous in nature,
       we selected a statistical sample of the costs. The sample size tested was based upon a 95%
       confidence level with a 5% maximum tolerable error rate. The sample was selected on a
       random basis. All other cost categories and/or accounts for which it was not appropriate to
       select a statistical sample, the sample was selected on a judgmental basis. Our sampling
       methodology for judgmental samples was as follows:

           o   For accounts that appeared to contain unallowable and restricted items according to the
               terms of the Agreement, Federal Acquisition Regulation (FAR) Part 31 and any other
               applicable regulations, we tested 100% of the transactions.
           o   For related party transactions, we tested 100% of the transactions.
           o   For high risk cost categories, we sampled at least 50% of the dollar value of the account.
           o   For medium risk cost categories, we sampled at least 20% of the dollar value of the
               account.
           o   For low risk cost categories, we sampled 10% of the dollar value of the account, not to
               exceed 50 transactions in total for all accounts comprising low risk cost categories.

       For those cost categories and/or accounts that were selected on a statistical basis, we
       calculated an error rate and projected the results to the population. If the results for a
       judgmental sample indicated a material error rate, our audit team consulted with the Audit
       Manager and Project Director as to whether the sample size should be expanded. If it appeared
       that based upon the results of a judgmental sample, an entire account was deemed not
       allowable, we did not expand our testing, but instead questioned the entire account.

Internal Control Related to the FAS

We reviewed CADG’s internal controls related to the FAS. This review was accomplished through
interviews with management and key personnel, review of policies and procedures, identifying key
controls within significant transaction cycles, and testing those key controls.

Compliance with Agreement Requirements and Applicable Laws and Regulations

We reviewed the Agreement, modifications and subawards and documented all compliance
requirements that could have a direct and material effect on the FAS. We assessed inherent and
control risk as to whether material noncompliance could occur. Based upon our risk assessment, we
designed procedures to test a sample of transactions to ensure compliance.

Corrective Action on Prior Findings and Recommendations

We requested all reports from previous engagements in order to evaluate the adequacy of corrective
actions taken on findings and recommendations that could have a material effect on the FAS. See the
Review of Prior Findings and Recommendations subsection of this Summary for this analysis.



                                                   3
                         CENTRAL ASIA DEVELOPMENT GROUP, INC.

                               Financial Audit of Costs Incurred under
                          Cooperative Agreement No. 306-A-00-09-00511-00

                         For the Period March 12, 2009 through June 30, 2013


SUMMARY

Fund Accountability Statement

In reviewing the FAS, we performed the following:

   •   Reconciled the costs on the FAS to the Agreement and general ledger;
   •   Traced receipt of funds to the accounting records; and
   •   Sampled and tested the costs incurred to ensure the costs were allowable, allocable to the
       Agreement and reasonable.

Exit Conference

An exit conference was held on October 8, 2013 via conference call. Participants included CADG,
SIGAR, and USAID. During the exit conference, we discussed the preliminary results of the audit and
established a timeline for providing any final documentation for consideration and reporting.


Summary of Results

Our audit of the costs incurred by CADG under the Agreement with USAID identified the following
matters:


Auditor’s Opinion on FAS

We issued a qualified opinion on the fairness of the presentation of the FAS based upon the
identification of $7,853,478 of questioned costs and $9,613 of lost interest earnings, which represents a
material misstatement of the FAS. Included within the questioned cost amount was the loss of Federal
funds totaling $561,718 resulting from employees’ theft by manipulating timesheets for fictitious CFW
laborers. The ultimate determination of whether the identified questioned costs are to be accepted or
disallowed rests with USAID.


Questioned Costs

There are two categories of questioned costs, ineligible and unsupported. Ineligible costs are those
costs that are deemed to not be allowable in accordance with the terms of the Agreement and
applicable laws and regulations, including 22 CFR 226 and FAR Part 31. Unsupported costs are those
costs for which no or inadequate supporting documentation was provided for our review. A summary of
questioned costs is as follows:




                                                    4
                        CENTRAL ASIA DEVELOPMENT GROUP, INC.

                               Financial Audit of Costs Incurred under
                          Cooperative Agreement No. 306-A-00-09-00511-00

                        For the Period March 12, 2009 through June 30, 2013


SUMMARY

Ineligible Costs

   •   Fraud due to the manipulation of timesheets for fictitious CFW laborers occurred in the Zabul
       province, resulting in $561,718 of ineligible costs. See Finding 2013-1 in the Findings and
       Responses section of this report.

   •   Unallowable costs charged to the Agreement resulting in $1,759 of ineligible costs. See Finding
       2013-9 in the Findings and Responses section of this report.

Unsupported Costs

   •   No documentation provided to support that the lowest airfare was incurred, or prior approval for
       other than the lowest airfare was obtained from USAID, resulting in questioned costs of
       $4,273,327. See Finding 2013-2 in the Findings and Responses section of this report.

   •   Lack of complete documentation for the CFW Program, resulting in $1,256,797 of questioned
       costs. See Finding 2013-3 in the Finding and Responses section of this report.

   •   Documentation was either not provided or insufficient documentation was provided to support
       transactions selected for testing within allowances, travel and transportation, other direct costs,
       and expensed equipment and vehicles, resulting in $466,862 of questioned costs. See Finding
       2013-4 in the Finding and Responses section of this report.

   •   Lack of adherence to timesheet policies and terms of employment contracts for labor costs –
       salaries and wages claimed, resulting in $408,948 of questioned costs. See Finding 2013-5 in
       the Finding and Responses section of this report.

   •   Documentation was not provided to support procurement efforts within other direct costs and
       expensed equipment and vehicles, resulting in $418,904 of questioned costs. See Finding
       2013-6 in the Finding and Responses section of this report.

   •   CADG transferred 16 assets with a cost of $284,285 from one province to another, but no
       documentation was maintain to support the transfer in to the new province. Additionally, there
       were 21 assets with a cost of $379,988 that were donated, and 3 assets with a cost of $44,250
       that were damaged. However, USAID approval was not obtained for the donated and damaged
       assets. The fair market value of the donated and damaged assets was $180,878. Total
       questioned costs were $465,163. See Finding 2013-7 in the Findings and Responses section of
       this report




                                                    5
                         CENTRAL ASIA DEVELOPMENT GROUP, INC.

                                Financial Audit of Costs Incurred under
                           Cooperative Agreement No. 306-A-00-09-00511-00

                         For the Period March 12, 2009 through June 30, 2013


SUMMARY

Total questioned costs as a result of our audit are as follows:

      Ineligible costs                         $ 563,477
      Unsupported costs                         7,290,001

        Total questioned costs                 $7,853,478


Program Income

Program income represents income generated from the use of Federal funds that is required to be used
in support of the purposes of the Agreement. During the audit period, CADG received advances of
Federal funds which were not deposited into an interest bearing account in order to generate program
income. The amount of lost program income was $9,613. See Finding 2013-8 in the Findings and
Recommendations section of this report.


Internal Control Findings

Internal control findings are classified into three categories, deficiency, significant deficiency, and
material weakness. A deficiency in internal control exists when the design or operation of a control
does not allow management or employees, in the normal course of performing their assigned functions,
to prevent, or detect and correct, misstatements on a timely basis. A significant deficiency is a
deficiency, or a combination of deficiencies, in internal control that is less severe than a material
weakness, yet important enough to merit attention by those charged with governance. A material
weakness is a deficiency, or a combination of deficiencies, in internal control, such that there is a
reasonable possibility that a material misstatement of the FAS will not be prevented, or detected and
corrected on a timely basis. A summary of the internal control findings noted as a result of the audit are
as follows:

Material Weaknesses

The following material weaknesses were reported:

      Finding                                                                      Auditee’s
      Number             Internal Control Finding – Material Weakness             Concurrence
      2013-1       Fraud due to the manipulation of timesheets for fictitious       Partially
                   CFW laborers occurred in the Zabul province, resulting in       Disagree
                   $561,718 of ineligible costs.

       2013-2      No documentation provided to support that the lowest             Disagree
                   airfare was incurred, or prior approval for other than the



                                                     6
                           CENTRAL ASIA DEVELOPMENT GROUP, INC.

                                 Financial Audit of Costs Incurred under
                            Cooperative Agreement No. 306-A-00-09-00511-00

                           For the Period March 12, 2009 through June 30, 2013


SUMMARY

      Finding                                                                     Auditee’s
      Number              Internal Control Finding – Material Weakness           Concurrence
                   lowest airfare was obtained from USAID, resulting in
                   questioned costs of $4,273,327.

       2013-3      Lack of complete documentation for the CFW Program,             Agree
                   resulting in $1,256,797 of questioned costs.

       2013-4      Documentation was either not provided or insufficient           Agree
                   documentation was provided to support transactions
                   selected for testing within allowances, travel and
                   transportation, other direct costs, and expensed equipment
                   and vehicles, resulting in $466,862 of questioned costs.

       2013-5      Lack of adherence to timesheet policies and terms of           Partially
                   employment contracts for labor costs – salaries and wages      Disagree
                   claimed, resulting in $408,948 of questioned costs.

       2013-6      Documentation was not provided to support procurement          Partially
                   efforts within other direct costs and expensed equipment       Disagree
                   and vehicles, resulting in $418,904 of questioned costs.


Significant Deficiencies

The following significant deficiencies were reported:

      Finding                                                                     Auditee’s
      Number             Internal Control Finding – Significant Deficiency       Concurrence
      2013-7       CADG transferred 16 assets with a cost of $284,285 from        Disagree
                   one province to another, but no documentation was
                   maintain to support the transfer in to the new province.
                   Additionally, there were 21 assets with a cost of $379,988
                   that were donated, and 3 assets with a cost of $44,250 that
                   were damaged. However, USAID approval was not
                   obtained for the donated and damaged assets. The fair
                   market value of the donated and damaged assets was
                   $180,878. Total questioned costs were $465,163.

       2013-9      Unallowable costs charged to the Agreement resulting in        Disagree
                   $1,759 of ineligible costs.



                                                    7
                        CENTRAL ASIA DEVELOPMENT GROUP, INC.

                              Financial Audit of Costs Incurred under
                         Cooperative Agreement No. 306-A-00-09-00511-00

                        For the Period March 12, 2009 through June 30, 2013


SUMMARY

      Finding                                                                    Auditee’s
      Number            Internal Control Finding – Significant Deficiency       Concurrence
      2013-10     CADG did not adhere to its established policies and             Partially
                  procedures related to the administration of the Agreement.     Disagree
                  No costs were questioned as adequate support was
                  provided for the costs incurred.


Deficiencies

No deficiencies were reported.


Compliance Findings

As part of obtaining reasonable assurance about whether the FAS is free from material misstatement,
we performed tests of its compliance with certain provisions of the Agreement and other laws and
regulations, noncompliance with which could have a direct and material effect on the determination of
FAS. The results of our tests disclosed the following compliance findings as described Findings and
Responses section of this report.

      Finding                                                                    Auditee’s
      Number                           Compliance Finding                       Concurrence
      2013-7      CADG transferred 16 assets with a cost of $284,285 from        Disagree
                  one province to another, but no documentation was
                  maintain to support the transfer in to the new province.
                  Additionally, there were 21 assets with a cost of $379,988
                  that were donated, and 3 assets with a cost of $44,250 that
                  were damaged. However, USAID approval was not
                  obtained for the donated and damaged assets. The fair
                  market value of the donated and damaged assets was
                  $180,878. Total questioned costs were $465,163.

      2013-8      Advances under the Agreement were not deposited into an        Disagree
                  interest bearing account. Total lost interest was $9,613.

      2013-9      Unallowable costs charged to the Agreement resulting in        Disagree
                  $1,759 of ineligible costs.

      2013-10     CADG did not adhere to its established policies and            Partially
                  procedures related to the administration of the Agreement.     Disagree
                  No costs were questioned as adequate support was


                                                  8
                        CENTRAL ASIA DEVELOPMENT GROUP, INC.

                              Financial Audit of Costs Incurred under
                         Cooperative Agreement No. 306-A-00-09-00511-00

                        For the Period March 12, 2009 through June 30, 2013


SUMMARY

       Finding                                                                    Auditee’s
       Number                         Compliance Finding                         Concurrence
                  provided for the costs incurred.

       2013-11    Of the 43 local Afghan employee personnel files reviewed,        Partially
                  none of the files contained evidence that a background           Disagree
                  check was performed. Additionally, résumés were missing
                  in 18 of the files.



Summary of CADG’s Responses to Findings

The following represents a summary of the responses provided by CADG to the findings identified in
this report. The complete responses received can be found in Appendix B to this report.

   •   Finding 2013-1: CADG partially disagrees with the finding and recommendation. It indicated
       that the amount questioned for the theft of Federal funds was returned to USAID on November
       15, 2013. Since these funds were returned to USAID and were not claimed as a direct
       expense, there were no overhead costs incurred.

   •   Finding 2013-2: CADG disagrees with the finding and recommendation. It indicated that the
       use of travel agencies and their price is allowable per the Federal Acquisition Regulation. It was
       unfeasible to obtain multiple bids per flight when purchasing flights for up to 200 local Afghans
       frequently throughout the year. Additionally, CADG obtained contracts with third party airlines
       flying within Afghanistan and required them to provide the lowest logical fare. Lastly, safety was
       a main concern of CADG, and it adhered to the regulations on the State Department website
       noting that U.S. government personnel are not permitted to travel on most Afghan airlines due
       to ongoing safety concerns.

   •   Finding 2013-3: CADG agrees with the finding and recommendation and indicates that it could
       make improvements in its records management system.

   •   Finding 2013-4: CADG agrees with the finding and recommendation and indicates that it could
       make improvements in its records management system, as well as revise the Financial Policy to
       appropriately reflect the reviews and approvals feasible for the CDP program.

   •   Finding 2013-5: CADG partially disagrees with the finding and recommendation. It indicated
       that in April 2012, a formalized timekeeping policy for local nationals was adopted. CADG had
       outlined the process of timekeeping and approvals of timesheets to document that there were
       sufficient approvals.



                                                   9
                        CENTRAL ASIA DEVELOPMENT GROUP, INC.

                              Financial Audit of Costs Incurred under
                         Cooperative Agreement No. 306-A-00-09-00511-00

                        For the Period March 12, 2009 through June 30, 2013


SUMMARY

   •   Finding 2013-6: CADG partially disagrees with the finding and recommendation. It indicated
       that the policies and procedures have been enhanced and modified throughout the life of the
       project. However, the key documentation to support that items are paid, received and benefit
       the program are present. CADG agreed that there is a necessity to train its personnel to
       enhance staff’s awareness of these policies and procedures.

   •   Finding 2013-7: CADG disagrees with the finding and recommendation. It indicated that all
       relevant procedures were followed. All assets that were donated or transferred had the
       Contracting Officer’s approval prior to being donated or transferred.

   •   Finding 2013-8: CADG disagrees with the finding and recommendation. CADG indicated that it
       was not feasible to maintain the funds in an interest bearing account due to the need of the
       funds in a timely manner. CADG stated that it is exempt from 22 CFR 226.22 because the
       depository would require an average or minimum balance so high that it would not be feasible
       within the expected Federal and non-Federal cash resources.

   •   Finding 2013-9: CADG disagrees with the finding and recommendation. It indicated that the
       costs incurred were considered to be allowable because they were necessary and reasonable
       for the proper and efficient administration of the program.

   •   Finding 2013-10: CADG partially disagrees with the finding and recommendation. Although
       CADG agreed that there is a necessity to train its personnel to enhance staff’s awareness of
       these policies and procedures, it indicated that there were several training sessions that took
       place during the project period. In addition to the formal training performed each year, informal
       training was provided on a regular basis with team members both in Singapore and
       Afghanistan.

   •   Finding 2013-11: CADG partially disagrees with the finding and recommendation stating that
       due to the nature and location of the work, strict adherence to the local national recruitment and
       termination policy were not practical.


Review of Prior Findings and Recommendations

The only prior audits and/or reviews performed were audits in accordance with the Single Audit Act for
the years ended December 31, 2009 through December 31, 2011. The audit was conducted by KPMG.
Draft reports were issued to CADG during the course of our fieldwork. However, the reports had not
yet been finalized and we were not provided with a copy of the draft reports for our review.




                                                   10
Board of Directors
Central Asia Development Group, Inc.
350 Orchard Road, #16-05
Shaw House, Singapore 238868



                         INDEPENDENT AUDITORS’ REPORT
                       ON FUND ACCOUNTABILITY STATEMENT


Report on the Fund Accountability Statement

We have audited the accompanying Fund Accountability Statement of Central Asia
Development Group, Inc. (CADG) under Cooperative Agreement No. 306-A-00-09-00511-00
(Agreement) with the United States Agency for International Development (USAID) for the
period March 12, 2009 through June 30, 2013, and the related notes to the Fund Accountability
Statement.


Management’s Responsibility for the Fund Accountability Statement

Management is responsible for the preparation and fair presentation of the Fund Accountability
Statement in accordance with the methods of preparation described in Note 2; this includes the
design, implementation, and maintenance of internal control relevant to the preparation and fair
presentation of financial statements (including the Fund Accountability Statement) that are free
from material misstatement, whether due to fraud or error.


Auditors’ Responsibility

Our responsibility is to express an opinion on the Fund Accountability Statement based on our
audit. We conducted our audit in accordance with auditing standards generally accepted in the
United States of America and the standards applicable to financial audits contained in
Government Auditing Standards, issued by the Comptroller General of the United States.
Those standards require that we plan and perform the audit to obtain reasonable assurance
about whether the Fund Accountability Statement is free from material misstatement.

An audit involves performing procedures to obtain audit evidence about the amounts and
disclosures in the Fund Accountability Statement. The procedures selected depend on the
auditor’s judgment, including the assessment of the risks of material misstatement of the Fund
Accountability Statement, whether due to fraud or error. In making those risk assessments, the



                                              11
Board of Directors
Central Asia Development Group, Inc.
350 Orchard Road, #16-05
Shaw House, Singapore 238868

auditor considers internal control relevant to the entity’s preparation and fair presentation of the
Fund Accountability Statement in order to design audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of the
entity’s internal control. Accordingly, we express no such opinion. An audit also includes
evaluating the appropriateness of accounting policies used and the reasonableness of
significant accounting estimates made by management, as well as evaluating the overall
presentation of the Fund Accountability Statement.

We believe that the audit evidence we have obtained is sufficient and appropriate to provide a
basis for our audit opinion.


Basis for Qualified Opinion

We identified several transactions totaling $7,853,478 that were questionable based upon our
review of the underlying support for the specified transactions. Included within this questioned
cost amount was the loss of Federal funds totaling $561,718 resulting from theft by manipulation
of timesheets for fictitious Cash-for-Work laborers. The ultimate determination of whether the
identified questioned costs are to be accepted or disallowed rests with USAID.


Qualified Opinion

In our opinion, except for the possible effects of the matter described in the Basis for Qualified
Opinion paragraph, the Fund Accountability Statement referred to above presents fairly, in all
material respects, the respective revenue received and costs incurred by CADG under the
Agreement for the period March 12, 2009 through June 30, 2013 in accordance with the basis of
accounting described in Note 2.


Other Reporting Required by Government Auditing Standards

In accordance with Government Auditing Standards, we have also issued our reports dated
December 16, 2013 on our consideration of CADG's internal control over financial reporting and
on our tests of its compliance with certain provisions of laws, regulations, contracts, and grant
agreements and other matters. The purpose of those reports is to describe the scope of our
testing of internal control over financial reporting and compliance and the results of that testing,
and not to provide an opinion on internal control over financial reporting or on compliance.
Those reports are an integral part of an audit performed in accordance with Government
Auditing Standards in considering CADG’s internal control over financial reporting and
compliance.




                                                12
Board of Directors
Central Asia Development Group, Inc.
350 Orchard Road, #16-05
Shaw House, Singapore 238868

This report is intended for the information of Central Asia Development Group, Inc., the United
States Agency for International Development, and the Special Inspector General for Afghanistan
Reconstruction. Financial information in this report may be privileged. The restrictions of 18
USC 1905 should be considered before any information is released to the public.




Irvine, California
December 16, 2013




                                              13
                                     CENTRAL ASIA DEVELOPMENT GROUP, INC.
                                           Financial Audit of Costs Incurred under
                                      Cooperative Agreement No. 306-A-00-09-00511-00

                                                 Fund Accountability Statement

                                     For the Period March 12, 2009 through June 30, 2013



                                                                                           Questioned Costs
                                           Budget            Actual           Ineligible    Unsupported          Total        Notes
Revenues:
  306-A-00-09-00511-00                $ 265,966,468     $ 264,054,823     $           -     $         -    $           -       (3)
  Interest                                      -                 -                   -            (9,613)          (9,613)    (4)

Total revenues                            265,966,468       264,054,823               -            (9,613)          (9,613)

Costs incurred:
  Labor costs - salaries and wages         34,162,726        31,890,892              -            324,562         324,562      (5)
  Allowances                                4,460,187         3,924,709              -              2,863           2,863      (6)
  Travel and transportation                 4,076,916         3,970,987              -          3,391,580       3,391,580      (7)
  Program costs - Cash-for-Work           147,988,501       142,935,899          445,808          997,458       1,443,266      (8)
  Other Direct Costs                       18,520,677        17,414,650            1,396          607,199         608,595      (9)
  Expensed Equipment and vehicles           2,363,120         2,368,077              -            582,187         582,187     (10)
  Overhead                                 54,394,341        52,035,656          116,273        1,384,152       1,500,425     (11)

Total costs incurred                      265,966,468       254,540,870          563,477        7,290,001       7,853,478

Outstanding fund balance              $             -   $     9,513,953   $     (563,477) $     (7,299,614) $   (7,863,091)   (12)




                                           See Notes to Fund Accountability Statement

                                                               14
                       CENTRAL ASIA DEVELOPMENT GROUP, INC.

                             Financial Audit of Costs Incurred under
                        Cooperative Agreement No. 306-A-00-09-00511-00

                              Notes to Fund Accountability Statement

                       For the Period March 12, 2009 through June 30, 2013


(1)   Status and Operation

      Central Asia Development Group Inc. (CADG) is a private limited liability corporation which is
      incorporated in the United States of America. The principal activities of CADG include providing
      goods and services through funding from the United States Agency for International
      Development (USAID) in the development for improvement of the social economic conditions of
      people in under-developed and war affected countries.

      On March 12, 2009, the United States Agency for International Development (USAID) awarded
      Cooperative Agreement Number 306-A-00-09-00511-00 (Agreement) to Central Asia
      Development Group, Inc. (CADG) in the amount of $10,000,000. The initial period of
      performance was through September 8, 2009. The Agreement has been modified 21 times
      increasing the total amount of the Agreement to $265,966,468.

      The purpose of the Agreement was to conduct activities focused on supporting the Food
      Insecurity Response for Urban Population (FIRUP) Program. The goal of the FIRUP Program
      was to relieve food insecurity for five provinces in Afghanistan, and target individuals and
      communities with Cash-for-Work (CFW) programs as an economic stimulus in the local
      communities. The five provinces were Kandahar, Lashkar Gah, Trin Kot, Gardez and
      Jalalabad.

      Throughout the period of performance, the scope of the Agreement was changed through
      modifications. In September 2009, the FIRUP Program period of performance was extended
      through September 11, 2010 and the scope was increased to include nine new provinces. In
      August 2010, the name of the FIRUP Program was changed to the Community Development
      Program (CDP), and two new provinces were added. In February 2013, the CDP was extended
      to provide stabilization support to counter-narcotics efforts in Kandahar, the Kandahar Helmand
      Power Project, and the Gardez-Khost Road. In March 2013, Modification Number 21 extended
      the period of performance through August 31, 2013.


(2)   Summary of Significant Accounting Policies

      (a)    Basis of Accounting

             The Fund Accountability Statement reflects the revenues received and expenses
             incurred under the Agreement. This practice differs in some respects from generally
             accepted accounting principles which provide for revenues to be reported when earned.
             The costs in the schedule are reported when incurred.




                                                 15
                       CENTRAL ASIA DEVELOPMENT GROUP, INC.

                             Financial Audit of Costs Incurred under
                        Cooperative Agreement No. 306-A-00-09-00511-00

                             Notes to Fund Accountability Statement

                                           (Continued)


(2)   Summary of Significant Accounting Policies (Continued)

      (b)    Foreign Currency Conversion Method

             CADG converts its expenses that were paid in local currency (Afghanis) into reporting
             currency (U.S. Dollar) by applying an average monthly rate based upon the bank rates
             used to transfer funds between U.S. dollar account and Afghanis account.

      (c)    Questioned Costs

             There are two categories of questioned costs, ineligible, and unsupported. Ineligible
             costs are those costs that are deemed to not be allowable in accordance with the terms
             of the Agreement and applicable laws and regulations, including 22 CFR 226 and
             Federal Requisition Regulation (FAR) Part 31. Unsupported costs are those costs for
             which no or inadequate supporting documentation was provided for our review.


(3)   Agreement Revenue

      As of June 30, 2013, CADG has reported $264,054,823 in revenue from USAID under the
      Agreement. For the period March 12, 2009 through June 30, 2013, CADG has invoiced a total
      of $254,540,870 to UASID. The balance of $9,513,953 represents advances received to cover
      costs that have not yet been incurred and/or billed to USAID. Also, see note 12 for details of
      outstanding fund balance.


(4)   Interest

      During the period March 12, 2009 through June 30, 2013, CADG received funds from USAID in
      advance of incurring allowable costs. CADG did not deposit the funds in an interest bearing
      account as required by the Code of Federal Regulations (CFR). This resulted in lost interest
      earnings of $9,613 based upon the monthly advance cash on hand multiplied by the monthly
      Federal Reserve rate approved throughout the entire period of performance. See Finding 2013-
      8 in the Finding and Responses section of this report.


(5)   Labor Costs – Salaries and Wages

      CADG reported labor costs – salaries and wages in the amount of $31,890,892 for the period
      March 12, 2009 through June 30, 2013. Unsupported and insufficiently supported labor costs
      consisted of the following. See Finding 2013-5 in the Findings and Responses section of this
      report. Also, see Note 11 for details of the associated overhead.



                                                16
                       CENTRAL ASIA DEVELOPMENT GROUP, INC.

                             Financial Audit of Costs Incurred under
                        Cooperative Agreement No. 306-A-00-09-00511-00

                                Notes to Fund Accountability Statement

                                             (Continued)


(5)   Labor Costs – Salaries and Wages (Continued)

                                                                   Number       Questioned
                              Observation                          of Errors      Costs
         Local Afghans:
          Employee did not sign the timesheet                         101        $ 60,435
          Missing timesheet                                           205         116,597
          Missing employment contract                                   2          51,902
          Salary paid outside the contract period                       4          21,641
          No supporting documentation was provided                      1          45,496

         Subtotal local Afghans                                       313          296,071

         Expatriates:
          Missing employment contract                                    1          11,753
          Pay rate did not match contract                                2             619
          Salary paid outside the contract period                        1          16,119

         Subtotal expatriates                                            4          28,491

         Total questioned labor costs – salaries and wages            317        $324,562


(6)   Allowances

      CADG reported allowances in the amount of $3,924,709 for the period March 12, 2009 through
      June 30, 2013. Danger pay was incorrectly calculated for 4 transactions in the total amount of
      $2,863. Also, see Note 11 for details of the associated overhead.


(7)   Travel and Transportation

      CADG reported travel and transportation costs in the amount of $3,970,987 for the period March
      12, 2009 through June 30, 2013. Insufficiently supported travel and transportation costs
      consisted of the following. See the specific finding number for details related to the observation
      noted. Also see Note 11 for details of the associated overhead.




                                                    17
                       CENTRAL ASIA DEVELOPMENT GROUP, INC.

                             Financial Audit of Costs Incurred under
                        Cooperative Agreement No. 306-A-00-09-00511-00

                               Notes to Fund Accountability Statement

                                             (Continued)


(7)   Travel and Transportation (Continued)

       Finding                                                                     Questioned
       Number                                Observation                             Cost
       2013-2      Lack of cost analysis to support selection of lowest
                    airfare, or if lowest airfare was not selected, then lack of
                    justification for not selecting lowest airfare                 $3,391,529
        2013-4     Lack of management approval for travel                                  51

                  Total questioned travel and transportation costs                 $3,391,580


(8)   Program Costs – Cash-for-Work

      CADG reported program costs – CFW in the amount of $142,935,899 for the period March 12,
      2009 through June 30, 2013. A fraud occurred in the Zabul province, which consisted of
      collusion between the Operations Manager and Cashier where $445,808 was misappropriated
      through manipulation of attendance sheets and creation of payment sheets for fictitious CFW
      laborers. CADG had filed an insurance claim for this incident. The insurance claim has not yet
      been paid by the insurance company. The costs of the fraud were charged to the Agreement
      and result in ineligible costs. See Finding 2013-1 in the Findings and Responses section of this
      report.

      Additionally, 78 transactions in the total amount of $997,458 were noted to contain various
      combinations of unsupported and insufficiently supported costs. The nature of the unsupported
      or insufficiently supported transactions included the following. See Finding 2013-3 in the
      Findings and Responses section of this report.


         •   Identical fingerprints or signatures for different laborers or vendors/suppliers;
         •   Different fingerprints or signatures for the same vendors/suppliers;
         •   Illegible fingerprints;
         •   Missing fingerprints or signatures;
         •   Missing worker’s position on payment record
         •   Incorrectly calculated payments to laborers
         •   Missing laborer’s name and/or laborer’s father’s name on payment record;
         •   Missing acknowledgement of receipt for cash received;
         •   Missing driver’s signature on driver tracking log;
         •   Missing invoice;
         •   Missing detailed trip log for goods delivered;
         •   Rate for trip fluctuated significantly for the same or different driver to the same location;
             and


                                                  18
                        CENTRAL ASIA DEVELOPMENT GROUP, INC.

                              Financial Audit of Costs Incurred under
                         Cooperative Agreement No. 306-A-00-09-00511-00

                                Notes to Fund Accountability Statement

                                               (Continued)


(8)   Program Costs – Cash-for-Work (Continued)

         •   Lack of management approval for payments.

      Total questioned program costs – CFW costs are as followed

                                                           Questioned
                         Type of questioned costs             Cost
                    Ineligible costs                       $ 445,808
                    Unsupported costs                        997,458

                       Total questioned costs              $1,443,266

      See Note 11 for details related to the associated overhead.


(9)   Other Direct Costs

      CADG reported other direct costs in the amount of $17,414,650 for the period March 12, 2009
      through June 30, 2013. Unallowable costs, costs that were either unsupported or insufficiently
      supported, and a lack of adherence to procurement procedures consisted of the following. See
      specific finding number for details related to the observations noted. Also, see Note 11 for
      details related to the associated overhead.

       Finding                                                                Questioned
       Number                                Observation                        Cost

       Ineligible costs:
         2013-9     Unallowable FAR 31 expenses                                $   1,396

       Total ineligible costs                                                      1,396

       Unsupported costs:
        2013-4   Unsupported or insufficient supported costs                   $293,895
        2013-6   Lack adherence to procurement procedures                       313,304

       Total unsupported costs                                                  607,199

       Total questioned other direct costs                                     $608,595




                                                   19
                        CENTRAL ASIA DEVELOPMENT GROUP, INC.

                              Financial Audit of Costs Incurred under
                         Cooperative Agreement No. 306-A-00-09-00511-00

                              Notes to Fund Accountability Statement

                                            (Continued)


(10)   Expensed Equipment and Vehicles

       CADG reported expensed equipment and vehicles costs in the amount of $2,368,077 for the
       period March 12, 2009 through June 30, 2013. Questioned costs were as follows. See specific
       finding number for details related to the observations noted.

        Finding                                                                Questioned
        Number                            Observation                            Cost
        2013-4     Unsupported or insufficient supported costs                 $ 92,883
        2013-6     Lack adherence to procurement procedures                      24,141
        2013-7     Improper property management system                          465,163

         Total unsupported costs                                               $582,187


(11)   Overhead Costs

       CADG reported overhead costs in the amount of $52,035,656 for the period March 12, 2009
       through June 30, 2013. The overhead rate of 26.13% was audited by KPMG for the year ended
       December 31, 2006. An overhead rate of 26.00% as included in the Agreement and remained
       unchanged throughout the period. The overhead rate is applied to total direct costs, excluding
       expensed equipment and vehicles. The overhead rate was applied to the questioned costs by
       cost category. A summary of associated questioned overhead costs by cost category is as
       follows:

                                                                             Associated
                                                           Questioned        Questioned
                          Cost Category                       Cost            Overhead
           Labor costs – salaries and wages (Note 5)         $324,562        $ 84,386
           Allowances (Note 6)                                  2,863              744
           Travel and transportation (Note 7)               3,391,580          881,811
           Program costs – CFW (Note 8)                     1,443,266          375,249
           Other direct costs (Note 9)                        608,595          158,235

             Total questioned overhead                                       $1,500,425


(12)   Outstanding Fund Balance

       As of June 30, 2013, there was an outstanding fund balance in the amount of $9,513,953. This
       outstanding fund balance will be used by CADG to cover costs to be incurred during the
       remaining period of performance of the Agreement.



                                                 20
          REPORT ON INTERNAL CONTROL OVER FINANCIAL REPORTING
         BASED ON AN AUDIT OF THE FUND ACCOUNTABILITY STATEMENT
      PERFORMED IN ACCORDANCE WITH GOVERNMENT AUDITING STANDARDS



                             INDEPENDENT AUDITORS’ REPORT


Board of Directors
Central Asia Development Group, Inc.
350 Orchard Road, #16-05
Shaw House, Singapore 238868


We have audited, in accordance with the auditing standards generally accepted in the United
States of America and the standards applicable to financial audits contained in Government
Auditing Standards issued by the Comptroller General of the United States, the Fund
Accountability Statement of Central Asia Development Group, Inc. (CADG) representing
revenues received and costs incurred under Cooperative Agreement No. 306-A-00-09-00511-00
with the United States Agency for International Development (USAID) for the period March 12,
2009 through June 30, 2013, and the related Notes to the Fund Accountability Statement, and
have issued our report thereon dated December 16, 2013. Those standards require that we
plan and perform the audit to obtain reasonable assurance about whether the Fund
Accountability Statement is free from material misstatement.


Internal Control over Financial Reporting

In planning and performing our audit of the Fund Accountability Statement, we considered
CADG's internal control over financial reporting (internal control) to determine the audit
procedures that were appropriate in the circumstances for the purpose of expressing our
opinion on the Fund Accountability Statement, but not for the purpose of expressing an opinion
on the effectiveness of CADG’s internal control. Accordingly, we do not express an opinion on
the effectiveness of CADG’s internal control.

Our consideration of internal control over financial reporting was for the limited purpose
described in the first paragraph of this section and was not designed to identify all deficiencies
in internal control over financial reporting that might be deficiencies, significant deficiencies or
material weaknesses. However, as described in the accompanying Findings and Responses,
we identified certain deficiencies in internal control over financial reporting that we consider to
be material weaknesses and significant deficiencies.


                                                21
Board of Directors
Central Asia Development Group, Inc.
350 Orchard Road, #16-05
Shaw House, Singapore 238868

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to
prevent, or detect and correct misstatements on a timely basis. A material weakness is a
deficiency, or a combination of deficiencies, in internal control such that there is a reasonable
possibility that a material misstatement of the entity’s financial statements will not be prevented,
or detected and corrected on a timely basis. We consider the deficiencies described in the
accompanying Findings and Reponses as Finding 2013-1 through 2013-6 to be material
weaknesses. As we performed our testing, we considered whether the information obtained
during our testing indicated the possibility of fraud or abuse. Evidence of possible fraud or
abuse was not indicated by our testing, except as noted in Finding 2013-1.

A significant deficiency is a deficiency, or a combination of deficiencies, in internal control that is
less severe than a material weakness, yet important enough to merit attention by those charged
with governance. We consider the deficiencies described in the accompanying Findings and
Responses as Findings 2013-7, 2013-9, and 2013-10 to be significant deficiencies.


CADG’s Response to Findings

CADG’s response to the findings identified in our audit is described in the accompanying
Findings and Responses, and included verbatim in Appendix B. CADG’s response was not
subjected to the auditing procedures applied in the audit of the Fund Accountability Statement
and, accordingly, we express no opinion on it.


Purpose of this Report

The purpose of this report is solely to describe the scope of our testing of internal control and
the result of that testing, and not to provide an opinion on the effectiveness of the CADG’s
internal control. This report is an integral part of an audit performed in accordance with
Government Auditing Standards in considering the entity’s internal control. Accordingly, this
communication is not suitable for any other purpose.

This report is intended for the information of Central Asia Development Group, Inc., the United
States Agency for International Development, and the Special Inspector General for Afghanistan
Reconstruction. Financial information in this report may be privileged. The restrictions of 18
USC 1905 should be considered before any information is released to the public.




Irvine, California
December 16, 2013




                                                  22
                REPORT ON COMPLIANCE AND OTHER MATTERS
         BASED ON AN AUDIT OF THE FUND ACCOUNTABILITY STATEMENT
      PERFORMED IN ACCORDANCE WITH GOVERNMENT AUDITING STANDARDS



                            INDEPENDENT AUDITORS’ REPORT


Board of Directors
Central Asia Development Group, Inc.
350 Orchard Road, #16-05
Shaw House, Singapore 238868


We have audited, in accordance with the auditing standards generally accepted in the United
States of America and the standards applicable to financial audits contained in Government
Auditing Standards issued by the Comptroller General of the United States, the Fund
Accountability Statement of the Central Asia Development Group, Inc. (CADG) representing
revenues received and costs incurred under Cooperative Agreement No. 306-A-00-09-00511-00
(Agreement) with the United States Agency for International Development (USAID) for the
period March 12, 2009 through June 30, 2013, and the related Notes to the Fund Accountability
Statement, and have issued our report thereon dated December 16, 2013. Those standards
require that we plan and perform the audit to obtain reasonable assurance about whether the
Fund Accountability Statement is free from material misstatement.


Compliance and Other Matters

As part of obtaining reasonable assurance about whether CADG’s Fund Accountability
Statement is free from material misstatement, we performed tests of its compliance with certain
provisions of laws, regulations, and the aforementioned Agreement, noncompliance with which
could have a direct and material effect on the determination of financial statement amounts.
However, providing an opinion on compliance with those provisions was not an objective of our
audit, and accordingly, we do not express such an opinion. As we performed our testing, we
considered whether the information obtained during our testing indicated the possibility of fraud
or abuse. Evidence of possible fraud or abuse was not indicated by our testing, except as noted
in Finding 2013-1. The results of our tests disclosed instances of noncompliance or other
matters that are required to be reported under Government Auditing Standards and which are
described in the accompanying Findings and Responses as Findings 2013-7 through 2013-11.




                                               23
Board of Directors
Central Asia Development Group, Inc.
350 Orchard Road, #16-05
Shaw House, Singapore 238868

CADG’s Response to Findings

CADG’s response to the finding identified in our audit is described in the accompanying
Findings and Responses, and included verbatim in Appendix B. CADG’s response was not
subjected to the auditing procedures applied in the audit of the Fund Accountability Statement
and, accordingly, we express no opinion on it.


Purpose of this Report

The purpose of this report is solely to describe the scope of our testing of compliance and the
result of that testing, and not to provide an opinion on compliance. This report is an integral part
of an audit performed in accordance with Government Auditing Standards in considering the
entity’s internal control. Accordingly, this communication is not suitable for any other purpose.

This report is intended for the information of Central Asia Development Group, Inc., the United
States Agency for International Development, and the Special Inspector General for Afghanistan
Reconstruction. Financial information in this report may be privileged. The restrictions of 18
USC 1905 should be considered before any information is released to the public.




Irvine, California
December 16, 2013




                                                24
                        CENTRAL ASIA DEVELOPMENT GROUP, INC.

                              Financial Audit of Costs Incurred under
                         Cooperative Agreement No. 306-A-00-09-00511-00

                                       Findings and Responses

                        For the Period March 12, 2009 through June 30, 2013


2013-1: Lack of Adequate Control Over Cash-For-Work (CFW) Laborers’ Attendance and
Payment Reconciliations

Condition:
CADG reported an occurrence of fraud within the Zabul Province between July 2012 and December
2012. There was collusion between the Operations Manager and Cashier where $445,808 was
misappropriated through manipulation of attendance sheets for fictitious CFW laborers and creation of
payment sheets for these fictitious laborers. CADG had filed an insurance claim for this incident. The
insurance claim has not yet been paid by the insurance company. CADG conducted an investigation
that included a review of all of the CFW payroll sheets and attendance sheets in Zabul to quantify the
total amount that was misappropriated. Additionally, CADG’s internal auditors selected a sample of
CFW projects in other provinces to review the CFW payroll and attendance sheets and did not note any
similar occurrences of fraud. Testing of CFW projects did not identify any additional possible
occurrences of fraud.


Cause:
CADG had an established control whereby the Provincial Manager was to perform a secondary
reconciliation review of the attendance and payment sheets to the monitoring and evaluation database
before the approval of any payments. The monitoring and evaluation database is maintained by the
Monitoring Officer who conducts a physical count of the actual number of laborers at the project sites.
Only the Monitoring Officer and Provincial Manager have access to this database. Any discrepancies
between the supporting documents and database would be identified during this review. However, the
Provincial Manager failed to perform this review and instead relied upon the Operations Manager’s
review, who was involved in the fraud scheme.


Criteria:
CADG Finance Policies & Procedures dated April 2012, Section 400.3, Statement of Policy, states, in
part:

       “CADG as a company regards and treats fraud and theft seriously. All CADG personnel
       (comprising staff and contracted personnel) are responsible for ensuring strong, robust
       and effective fraud and theft control…”

Additionally, CADG’s Provincial Manager Manual states, in part:

         “…Operations Managers will verify all attendance sheets after it has been signed by the Cash
         For Work Supervisors, Operations Manager and Provincial Manager/Deputy Provincial
         Manager…Operations Manager and Provincial Manager will approve the payment sheets…”




                                                  25
                           CENTRAL ASIA DEVELOPMENT GROUP, INC.

                                 Financial Audit of Costs Incurred under
                            Cooperative Agreement No. 306-A-00-09-00511-00

                                       Findings and Responses

                                              (Continued)


2013-1: Lack of Adequate Control Over Cash-For-Work (CFW) Laborers’ Attendance and
Payment Reconciliations (Continued)

Furthermore, 48 CFR 31.201-2, Determining Allowability, states, in part:

         “…(d) A contractor is responsible for accounting for costs appropriately and for
         maintaining records, including supporting documentation, adequate to demonstrate that
         costs claimed have been incurred, are allocable to the contract, and comply with
         applicable cost principles in this subpart and agency supplements…”


Effect:
Failure to follow established internal controls over the CFW cash payments to laborers resulted in the
theft of Federal funds. USAID funds were misappropriated and claimed as follows. These costs have
been questioned.

     Theft of CFW funds                      $445,808
     Associated overhead                      115,910

         Total ineligible costs              $561,718


Recommendation:
   (1) We recommend that CADG either provide evidence that the amount of loss and associated
       indirect costs were not billed to USAID, or return $561,718 to USAID for theft of federal funds.

   (2)    We recommend that CADG provide training to its Provincial Managers and Deputy Provincial
          Managers involved in the CFW Program to ensure established internal controls are followed.




                                                  26
                         CENTRAL ASIA DEVELOPMENT GROUP, INC.

                               Financial Audit of Costs Incurred under
                          Cooperative Agreement No. 306-A-00-09-00511-00

                                       Findings and Responses

                                              (Continued)


2013-2: Lack of Cost Analysis to Determine Whether Lowest Priced Airfare was Incurred

Condition:
During the testing of international and chartered airfare costs, including costs incurred by CADG for the
use of its own plane, there was no cost analysis to support that the lowest priced airfares were
selected. In addition, there was no justification documented or USAID approval for when the lowest
priced airfare was not selected. For a sample of airfare tested, CADG provided a listing with price
comparison on some of the chartered flights and CADG’s own plane. However, these rates were not
supported by any source documentation, such as quotations, copies of online airfare costs, etc. Based
upon this list, the CADG airfares charged were greater than those of other commercial carriers ranging
from $70 to $270 per person. For international flights, there was no documentation to substantiate that
the airfares charged were the lowest available. As a result, the excess of the amount expended over
the lowest fare or reasonably priced fare cannot be determined. Total airfare costs incurred were
$3,391,529.


Cause:
CADG was unaware that it should prepare and document a cost analysis for instances when the lowest
airfare was not purchased. CADG indicated that for the airfares that were not the lowest priced, it was
aware that there were other airlines available and at a lower price, but they were not deemed safe for
travel due to ongoing safety concerns and lack of Afghan government safety oversight capabilities.
CADG refused to endanger the lives of its employees by purchasing the cheapest flight, regardless of
safety. Additionally, CADG employed many local Afghans as Finance Officers and other management
positions that would require travel to the various offices throughout the provinces. This would require
the local Afghans to travel via plane. However, some commercial airlines flying throughout Afghanistan
would not allow local Afghans on their flights.


Criteria:
48 CFR 31.205-46, Travel Costs, states, in part:

         “…(b) Airfare costs in excess of the lowest priced airfare available to the contractor during
         normal business hours are unallowable except when such accommodations require circuitous
         routing, require travel during unreasonable hours, excessively prolong travel, result in
         increased cost that would offset transportation savings, are not reasonably adequate for the
         physical or medical needs of the traveler, or are not reasonably available to meet mission
         requirements. However, in order for airfare costs in excess of the above airfare to be
         allowable, the applicable condition(s) set forth above must be documented and justified…




                                                   27
                         CENTRAL ASIA DEVELOPMENT GROUP, INC.

                               Financial Audit of Costs Incurred under
                          Cooperative Agreement No. 306-A-00-09-00511-00

                                        Findings and Responses

                                              (Continued)


2013-2: Lack of Cost Analysis to Determine Whether Lowest Priced Airfare was Incurred
(Continued)

          “(c)(2) The costs of travel by contractor-owned, -leased, or -chartered aircraft are limited to
          the allowable airfare described in paragraph (b) of this subsection for the flight destination
          unless travel by such aircraft is specifically required by contract specification, term, or
          condition, or a higher amount is approved by the contracting officer….”

Although the criteria indicates that costs in excess of the lowest fare are not allowable, there was no
documentation available to support and/or determine what the lowest fare was at the time of travel. As
such, the entire cost of airfare has been questioned.


Effect:
Lack of a cost analysis or documented support to ensure the lowest priced airfare was incurred, or
justification with proper approvals for why the lowest airfare was not incurred, does not demonstrate
that USAID funds were used in the most cost efficient manner. This cost analysis becomes even more
important when CADG uses its own plane for transporting employees as this results in a related party
transaction which is less than arms-length. Since no documentation exists to determine what the
lowest airfare was at the time of travel, all airfare costs, including associated overhead have been
questioned as follows:

     Total airfare incurred                 $3,391,529
     Associated overhead                       881,798

         Total questioned costs             $4,273,327


Recommendation:
   (1) We recommend that CADG either provide documentation to USAID to support that airfare
       costs incurred represented the lowest airfare or justify why the lowest airfare was not selected,
       or return $4,273,327 to USAID due to a lack of documentation supporting airfare costs.

   (2)    We recommend that CADG develop procedures to document its decisions on determining the
          cost to be incurred for airfare, including seeking prior approval from USAID when the lowest
          airfare is not selected.




                                                   28
                         CENTRAL ASIA DEVELOPMENT GROUP, INC.

                               Financial Audit of Costs Incurred under
                          Cooperative Agreement No. 306-A-00-09-00511-00

                                         Findings and Responses

                                                (Continued)


2013-3: Lack of Complete Documentation to Support CFW Program

Condition:
In 78 of the 163 CFW Programs transactions tested, CADG failed to properly monitor the program to
ensure all adequate documentation was obtained and maintained. A summary of the observations
noted is as follows. Each of the observations noted represents a departure from CADG’s CFW and
disbursement policy and procedures.

                                                                         Number of
                                                                        Transactions
                              Observation                                with Errors   Amount
   Identical fingerprints or signature for different laborers or
     vendors/suppliers; different fingerprints or signature for the
     same vendors/suppliers; illegible fingerprints; fingerprints or
     signature missing; missing worker’s position on payment
     records; incorrect payments to CFW laborers; missing
     laborer name and/or the laborer’s father’s name on
     payment records; missing acknowledgement of receipt for
     cash received; missing driver’s signature on delivery
     tracking log; missing invoice; missing detail trip log for
     services delivered; trip’s rate fluctuated significantly for the
     same or different driver to the same location without
     justification; and lack of management approval for
     documentation of payments                                               78        $997,458

Details of the individual observations noted can be found in Appendix A to this report.


Cause:
Although CADG had established control procedures for its CFW Programs, management did not
adequately train or closely monitor its field team members to ensure the procedures were properly
followed and that all relevant documentation was obtained and maintained as required.


Criteria:
CADG Finance Policies & Procedures dated April 2012, Section 300.5-A12, Cash-for-Work (CFW)
Payments, states, in part:

         “…b. All payment records should contain the following details:
               • CFW project Number
               • Project title
               • Worker’s name



                                                     29
                         CENTRAL ASIA DEVELOPMENT GROUP, INC.

                               Financial Audit of Costs Incurred under
                          Cooperative Agreement No. 306-A-00-09-00511-00

                                        Findings and Responses

                                               (Continued)


2013-3: Lack of Complete Documentation to Support CFW Program (Continued)

                 •   Worker’s father’s name
                 •   Position
                 •   Total days worked
                 •   Daily rate
                 •   Amount due
                 •   Total amount due

       c. Prior to the payment of CFW wages, all payment records are prepared and checked
       for accuracy based on the attendance taken for the particular pay period. SFO/FOs
       must ensure that the daily rate multiplied by the number of days worked equals the
       “Amount Paid” for each worker…

       e. Senior Finance Officer/Finance Officer will check that a thumbprint or signature is
       present for every worker who was paid…”

Additionally, 48 CFR 31.201-2, Determining Allowability, states, in part:

       “…(d) A contractor is responsible for accounting for costs appropriately and for
       maintaining records, including supporting documentation, adequate to demonstrate that
       costs claimed have been incurred, are allocable to the contract, and comply with
       applicable cost principles in this subpart and agency supplements…”

Furthermore, 22 CFR 226.53, Retention and access requirement for records, states, in part:

       “…(b) Financial records, supporting documents, statistical records, and all other records
       pertinent to an award shall be retained for a period of three years from the date of
       submission of the final expenditure report or, for awards that are renewed quarterly or
       annually, from the date of the submission of the quarterly or annual financial report, as
       authorized by USAID…”


Effect:
Incomplete or missing supporting documentation does not allow CADG to ensure that the projects had
actually been completed and the vendor, suppliers, and/or laborers actually performed services related
to the projects. Given that all payments are made in cash, the risk of misappropriated funds is elevated
and the requirement to completely document the program as outlined in the CADG Finance Policies &
Procedures is critical to support that funds were used for their intended purpose. Total questioned
costs are as follows:




                                                    30
                         CENTRAL ASIA DEVELOPMENT GROUP, INC.

                               Financial Audit of Costs Incurred under
                          Cooperative Agreement No. 306-A-00-09-00511-00

                                     Findings and Responses

                                           (Continued)


2013-3: Lack of Complete Documentation to Support CFW Program (Continued)

     CFW costs not completely supported          $ 997,458
     Associated overhead                           259,339

         Total questioned costs                  $1,256,797


Recommendation:
   (1) We recommend that CADG either provide the necessary CFW documentation to USAID or
       return $1,256,797 for a lack of complete documentation to support the CFW Program.

   (2)    We recommend that CADG provide training to its field team members to ensure they are
          following the requirements of the CADG Finance Policies & Procedures when documenting
          the costs incurred in the CFW Program.




                                               31
                          CENTRAL ASIA DEVELOPMENT GROUP, INC.

                                 Financial Audit of Costs Incurred under
                            Cooperative Agreement No. 306-A-00-09-00511-00

                                           Findings and Responses

                                                (Continued)


2013-4: Missing or Insufficient Source Documentation to Support Expenses

Condition:
CADG was unable to provide records, or provided insufficient records, to support transactions selected
for testing in allowances, travel and transportation, other direct costs, and expensed equipment and
vehicles. Specifically, the following observations were noted:

                                                                        Number of
                                                                       Transactions
                             Observation                                With Errors   Amount
  Allowances:
     Danger pay calculated incorrectly                                        4       $     2,863

  Subtotal allowances                                                         4             2,863

  Travel and transportation:
     Lack of management approval                                              2               51

  Subtotal travel and transportation                                          2               51

  Other direct costs:
    Lack of management approval for payment                                  5             50,584
    Lack of management approval for lease agreement                          2              2,200
    Missing vendor/supplier agreement                                        6             53,772
    Missing receiving inspection report                                     11             95,571
    Missing acknowledgment of cash receipt                                   2             36,544
    Missing invoice and lack of management approval                          1              4,730
    Missing invoice                                                          1                593
    No documentation provided                                                1              7,050
    Missing acknowledgment of receipt and missing receiving
      inspection report                                                       2            14,402
    Missing purchase requisition                                              2             7,750
    Missing vendor/supplier agreement and lack of management
      approval for payment                                                    1             9,900
    Missing purchase order and missing purchase requisition                   1            10,000
    Missing purchase requisition and missing invoice                          1                30
    Missing purchase order, missing receiving inspection report, and
      invoice dates were not translated                                       1              769

  Subtotal other direct costs                                               37            293,895




                                                     32
                          CENTRAL ASIA DEVELOPMENT GROUP, INC.

                                Financial Audit of Costs Incurred under
                           Cooperative Agreement No. 306-A-00-09-00511-00

                                          Findings and Responses

                                                 (Continued)


2013-4: Missing or Insufficient Source Documentation to Support Expenses (Continued)

                                                                        Number of
                                                                       Transactions
                             Observation                                With Errors   Amount
  Expensed equipment and vehicles:
    Missing receiving inspection report                                       2       $ 23,532
    Missing invoice and missing receiving inspection report                   2         41,500
    Missing receiving inspection report and invoice is illegible              1            599
    No documentation provided                                                 1          1,858
    Missing receiving inspection report and missing
      acknowledgment of receipt                                               4          7,356
    Missing receiving inspection report and invoice date was not
      translated                                                              2         17,975
    Missing purchase requisition, missing receiving inspection
      report, and invoice date is not translated                              1            63

  Subtotal expensed equipment and vehicles                                  13          92,883

  Total costs for which missing or insufficient support was provided        56        $389,692


Cause:
Due to the magnitude of the program involved, management did not closely monitor all aspects of the
program and sometimes failed to perform its responsible duties. In addition, management relied on
field personnel to adequately follow the control procedures in place. However, field personnel did not
always obtain, complete, or maintain the required documentation due to difficulties in operating the
program in a hostile environment.


Criteria:
22 CFR 226.53, Retention and access requirement for records, states, in part:

       “…(b) Financial records, supporting documents, statistical records, and all other records
       pertinent to an award shall be retained for a period of three years from the date of
       submission of the final expenditure report or, for awards that are renewed quarterly or
       annually, from the date of the submission of the quarterly or annual financial report, as
       authorized by USAID…”




                                                       33
                         CENTRAL ASIA DEVELOPMENT GROUP, INC.

                               Financial Audit of Costs Incurred under
                          Cooperative Agreement No. 306-A-00-09-00511-00

                                        Findings and Responses

                                               (Continued)


2013-4: Missing or Insufficient Source Documentation to Support Expenses (Continued)

Additionally, 48 CFR 31.201-2, Determining Allowability, states, in part:

       “…(d) A contractor is responsible for accounting for costs appropriately and for
       maintaining records, including supporting documentation, adequate to demonstrate that
       costs claimed have been incurred, are allocable to the contract, and comply with
       applicable cost principles in this subpart and agency supplements…”

Furthermore, CADG Finance Policies & Procedures dated April 2012, Section 300.5-A, General
Guidelines, states, in part:

       “…300.5-A2 Purchase Requisition (PR)…

       b. To initiate a purchase of goods or services, a purchase requisition is raised by the
       requesting employee…

       f. All purchase requisitions, however, do not move forward in the process without initial
       approval from the Provincial Manager or Deputy Provincial Manager, or other Senior
       Manager…

       300.5-A3 Procurement Flow

       m. If the vendor is unable to provide an official receipts or invoices, the FO must filled-
       out the “Statement in lieu of no receipt” upon making payment. Approval from PM/DPM
       and acknowledgement from the vendor must be obtained before releasing payment…

       300.5-A5 Receiving goods

       a. When a vendor delivers consumables for a project, a Receiving Inspection Report
       (RIR) is required to be filled-up upon receiving goods…

       300.5-A7 Property Lease Contracts

       a. A standard Property Lease Contract is used for CADG properties, including houses,
       guest houses, storage facilities, parking lots, and other real properties…

       c. The Property Lease Contract must be completed in full, signed by the property owner,
       and then approved and signed by the Chief of Party…”




                                                    34
                         CENTRAL ASIA DEVELOPMENT GROUP, INC.

                               Financial Audit of Costs Incurred under
                          Cooperative Agreement No. 306-A-00-09-00511-00

                                       Findings and Responses

                                              (Continued)


2013-4: Missing or Insufficient Source Documentation to Support Expenses (Continued)

Effect:
Failure to maintain adequate supporting documentation resulted in an inability to demonstrate that
costs incurred were allowable, allocable and related to the Agreement. Total questioned costs are as
follows:

                                                                            Total
                                           Questioned       Associated   Questioned
             Cost Category                    Cost          Overhead        Cost
  Allowances                                $ 2,863          $ 744        $ 3,607
  Travel and transportation                        51             13            64
  Other direct costs                         293,895          76,413       370,308
  Expensed equipment and vehicles             92,883                -       92,883

    Total questioned costs                  $389,692        $77,170       $466,862

In addition, the sampled costs for allowances were statistically selected. Had the results of our testing
been extrapolated to the population, the total questioned costs, including overhead, for allowances
would have been $18,103. However, in the recommendation below, we are taking the conservative
approach by not projecting the results to the population, but asking CADG to take action on the actual
questioned costs identified in the sample.


Recommendation:
   (1) We recommend that CADG either provide adequate documentation to USAID or return
       $466,862 for costs in which documentation was missing or insufficient.

   (2)   We recommend that CADG provide training to all personnel to ensure they are following the
         requirements of the CADG Finance Policies & Procedures by obtaining, completing and
         maintaining all documentation as required.




                                                   35
                        CENTRAL ASIA DEVELOPMENT GROUP, INC.

                                 Financial Audit of Costs Incurred under
                            Cooperative Agreement No. 306-A-00-09-00511-00

                                       Findings and Responses

                                              (Continued)


2013-5: Lack Adherence to Timesheet Policy and the Terms of Employment Contract

Condition:

For the 374 local Afghans and 187 Expatriates timesheets tested, the following exceptions were noted:

                                                               Number       Questioned
                             Observation                       of Errors      Costs
     Local Afghans:
      Employee did not sign the timesheet                         101        $ 60,435
      Missing timesheet                                           205         116,597
      Missing employment contract                                   2          51,902
      Salary paid outside the contract period                       4          21,641
      No supporting documentation was provided                      1          45,496

     Subtotal local Afghans                                       313         296,071

     Expatriates:
      Missing employment contract                                    1          11,753
      Pay rate did not match contract                                2             619
      Salary paid outside the contract period                        1          16,119

     Subtotal expatriates                                            4          28,491

     Total questioned labor costs – salaries and wages            317        $324,562

In addition, there were 169 instances of local Afghan timesheets that were not approved by the
immediate supervisor, but were by other management level personnel, such as the Executive Assistant,
Administrative Officer or Provincial Manager. Furthermore, of the 187 expatriates tested, all timesheets
were approved by the Human Resource Manager located in Singapore instead of the immediate
supervisor in Afghanistan. Although the timesheets in all of these instances were not approved by the
individuals required, they were approved by other management employees. As such, no costs have
been questioned related to approving timesheets by supervisors.


Cause:
Management and field personnel were overwhelmed by the number of employees hired under the
programs, causing a breakdown in following established timekeeping and record retention procedures.
This condition occurred throughout the audit period, for a variety of personnel and supervisors.
Although policy and procedures were developed, management did not closely monitor its employees to
ensure the policy was implemented, including proper retention of local Afghans’ timesheets.




                                                  36
                        CENTRAL ASIA DEVELOPMENT GROUP, INC.

                               Financial Audit of Costs Incurred under
                          Cooperative Agreement No. 306-A-00-09-00511-00

                                       Findings and Responses

                                             (Continued)


2013-5: Lack Adherence to Timesheet Policy and the Terms of Employment Contract
(Continued)

Criteria:
CADG Donor Funded Projects – Timesheet Policy, Section 4, Parameters, states, in part:

       “A. Completion of bi-monthly Timesheets…

       6) Timesheets will be completed and submitted, electronically, to their reporting
       managers…

       B. Submission of Timesheets…

       2) Timesheets must be converted to PDF or printed off, scanned and then emailed to
       reporting managers to ensure corrects can only be made by the individual contractor.

       3) Contractors must seek to obtain their reporting manager signature on all timesheets at
       least once per month.

       4) Original copies of all electronically submitted timesheets, signed by both the
       contractor and reporting manager, will be sent to Singapore HR on a monthly basis...”

Additionally, 48 CFR 31.205-6, Compensation for personal services, states, in part:

       “…(3) The compensation must be based upon and conform to the terms and conditions
       of the contractor’s established compensation plan or practice followed so consistently as
       to imply, in effect, an agreement to make the payment…”

Furthermore, 22 CFR 226.53, Retention and Access Requirements for Records, states, in part:

         “…(b) Financial records, supporting documents, statistical records, and all other
         records pertinent to an award shall be retained for a period of three years from the
         date of submission of the final expenditure report or, for awards that are renewed
         quarterly or annually, from the date of the submission of the quarterly or annual
         financial report, as authorized by USAID…”




                                                  37
                         CENTRAL ASIA DEVELOPMENT GROUP, INC.

                               Financial Audit of Costs Incurred under
                          Cooperative Agreement No. 306-A-00-09-00511-00

                                      Findings and Responses

                                             (Continued)


2013-5: Lack Adherence to Timesheet Policy and the Terms of Employment Contract
(Continued)

Effect:
Missing employee signatures on timesheets raises doubt as to whether the employees actually worked
the hours as detailed. Additionally, timesheets not approved by the employee’s immediate supervisor,
or approved by the Human Resource Manager located in Singapore, also raises doubt as to whether
the approver actually had knowledge of the hours worked by the employee. Additionally, failure to
maintain adequate supporting documentation resulted in an inability to demonstrate that costs incurred
were allowable, allocable, and related to the Agreement. Total questioned labor costs – salaries and
wages are as follows:

     Questioned labor costs – salaries and wages           $324,562
     Associated overhead                                     84,386

         Total questioned costs                            $408,948


Recommendation:
   (1) We recommend that CADG either provide the missing documentation, proper approvals and
       evidence to support that the personnel costs were properly allocable to the Agreement, or
       return $408,948 for unsupported labor costs – salaries and wages.

   (2)    We recommend that CADG provide training to all personnel to ensure they understand the
          timekeeping and record retention procedures.




                                                 38
                           CENTRAL ASIA DEVELOPMENT GROUP, INC.

                                     Financial Audit of Costs Incurred under
                                Cooperative Agreement No. 306-A-00-09-00511-00

                                           Findings and Responses

                                                 (Continued)


2013-6: Lack of Adherence to Procurement Procedures

Condition:
CADG was unable to provide records, or provided insufficient records, to support procurement efforts
for testing in the other direct costs and expensed equipment and vehicles cost categories. Specifically,
the following observations were noted:

                                                                                   Number of
                                                                                  Transactions
                                      Observation                                  With Errors    Amount
  Other direct costs:
    Missing justification for sole source selection                                     1        $ 15,500
    Justification provided was insufficient to determine why the awarded vendor
      was selected                                                                      1          35,136
    Missing Cost Price Analysis & Competition Form                                      1           2,373
    Missing Cost Price Analysis & Competition Form, and quotations                      4         192,052
    Missing justification for sole source selection; missing acknowledgement of
      receipt                                                                           1              11
    Missing Cost Price Analysis & Competition Form, and missing quotations;
      missing acknowledgment of receipt and purchase requisition                        2           3,000
    Missing Cost Price Analysis & Competition Form, and quotations; missing
      receiving inspection report                                                       2          25,300
    Missing quotations, purchase order and purchase requisition                         1           5,427
    Missing Cost Price Analysis & Competition Form; missing purchase order,
      receiving inspection report, and acknowledgment of receipt                        1           1,857
    Missing Cost Price Analysis & Competition Form;. missing acknowledgment
      of receipt                                                                        1          20,000
    Missing Cost Price Analysis Competition Form, and quotations; missing
      purchase requisition, purchase order, receiving inspection report and no
      dates on invoice                                                                  1          12,648

  Subtotal other direct costs                                                          16         313,304

  Expensed equipment and vehicles:
    Missing Cost Price Analysis & Competition Form, and missing receiving
      inspection report                                                                 1          15,600
    Missing quotations                                                                  1           7,400
    Missing Cost Price Analysis & Competition Form; lack of management
      approval, missing purchase requisition, purchase order, receiving
      inspection report and payment voucher                                             1           1,141

  Subtotal expensed equipment and vehicles                                              3          24,141

  Total costs for which procurement procedures were not followed                       19        $337,445




                                                      39
                         CENTRAL ASIA DEVELOPMENT GROUP, INC.

                               Financial Audit of Costs Incurred under
                          Cooperative Agreement No. 306-A-00-09-00511-00

                                        Findings and Responses

                                              (Continued)


2013-6: Lack of Adherence to Procurement Procedures (Continued)

Additionally, there was no documentation to support that CADG allowed for open and free competition
to the maximum extent practical, and that when such open and free competition was not practical,
justifications to that effect were not documented. CADG did not advertise the program to potential
vendors within the area to allow for competition, but did obtain quotations from vendors and utilized
preferred vendors based on reputation and quality of items purchased. From the quotations obtained,
CADG did select the lowest vendor or provided appropriate justification as to why the lowest vendor
was not selected. Since evidence did exist to indicate that quotes were obtained, no costs have been
questioned related to open and free competition.


Cause:
Due to the magnitude of the program involved, management did not closely monitor all aspects of the
program and sometimes failed to perform its responsibilities. In addition, management relied on field
personnel to follow the control procedures in place. However, field personnel did not always obtain,
complete, or maintain the required documentation due to difficulties in operating the program in a
hostile environment.

CADG indicated that in some instances, it did not create and distribute solicitations for goods and
services procured during the program. Instead, the field employees obtained quotes from different
vendors who appeared to be established in the community and/or had a reputable business. CADG felt
that it could not publicize the work being performed in certain provinces due to potential threats
surrounding the work.


Criteria:
22 CFR 226.46, Procurement records, states:

       “Procurement records and files for purchases in excess of the small purchase threshold
       shall include the following at a minimum:

       (a) Basis for contractor selection,

       (b) Justification for lack of competition when competitive bids or offers are not obtained,
       and

       (c) Basis for award cost or price.”

Additionally, 22 CFR 226.43, Competition, states, in part:




                                                   40
                       CENTRAL ASIA DEVELOPMENT GROUP, INC.

                              Financial Audit of Costs Incurred under
                         Cooperative Agreement No. 306-A-00-09-00511-00

                                     Findings and Responses

                                            (Continued)


2013-6: Lack of Adherence to Procurement Procedures (Continued)

       “All procurement transactions shall be conducted in a manner to provide, to the
       maximum extent practical, open and free competition…Awards shall be made to the
       bidder or offeror whose bid or offer is responsive to the solicitation and is most
       advantageous to the recipient, price, quality and other factors considered…”

Furthermore, 22 CFR 226.53, Retention and Access Requirements for Records, states, in part:

        “…(b) Financial records, supporting documents, statistical records, and all other
        records pertinent to an award shall be retained for a period of three years from the
        date of submission of the final expenditure report or, for awards that are renewed
        quarterly or annually, from the date of the submission of the quarterly or annual
        financial report, as authorized by USAID…”

CADG Finance Policies & Procedures dated July 2011, Section 300.5-A3, Procurement Flow, states, in
part:

       “…c) For goods or services that cost the equivalent of $500 USD or more, three written
       quotations must be obtained from vendors. Bids are compiled using the Cost Price
       Analysis & Competition Form (CPA)…

       f)…When there are only two vendors available to give quotations, the CPA is completed
       with a notation in the areas reserved for the third vendor stating that only two were
       available and explaining why a third bid could not be obtained…”


Effect:
Lack of adherence to procurement procedures can result in the acquisition of goods and/or services
that are not competitively priced. In a hostile environment, adherence to procurement policies and
procedures are critical in order to ensure funds expended were reasonable, allowable and allocable.
Total questioned costs are as follows:

                                                                          Total
                                         Questioned       Associated   Questioned
             Cost Category                 Cost           Overhead        Cost
  Other direct costs                     $313,304          $81,459     $394,763
  Expensed equipment and vehicles          24,141                 -      24,141

    Total questioned costs               $337,445         $81,459      $418,904




                                                41
                       CENTRAL ASIA DEVELOPMENT GROUP, INC.

                             Financial Audit of Costs Incurred under
                        Cooperative Agreement No. 306-A-00-09-00511-00

                                     Findings and Responses

                                           (Continued)


2013-6: Lack of Adherence to Procurement Procedures (Continued)

Recommendation:
   (1) We recommend that CADG either provide adequate documentation to USAID or return
       $418,904 for costs in which there was a demonstrated lack of adherence to procurement
       procedures.

   (2)   We recommend that CADG provide procurement training to all personnel to ensure that
         established procedures related to competitive bidding are followed and that documentation
         supporting procurement decisions is retained.




                                                42
                        CENTRAL ASIA DEVELOPMENT GROUP, INC.

                              Financial Audit of Costs Incurred under
                         Cooperative Agreement No. 306-A-00-09-00511-00

                                       Findings and Responses

                                             (Continued)


2013-7: Lack of Support for Transferred, Donated and Damaged Assets

Condition:
CADG maintained a tracking log for its assets purchased in the 23 provinces where the Community
Development Program (CDP) was operated. During the testing of equipment reconciliations, there
were 16 assets with a cost of $284,285 that were transferred from one province to another province as
follows. However, the asset tracking log was not properly updated to show that the transferred out
assets were in the new location. As such, there was a lack of an audit trail to confirm whether these
assets had been properly delivered and/or maintained at the new locations.

     Original   Transferred
    Province        To                Asset ID             Item Description      Amount
  Dand-Daman     Kandahar        C136-DD-8926-0006            Generator         $ 15,500
     Ghanzi        Zabul         C136-GN-8926-0004            Generator           15,600
     Ghanzi        Zabul         C136-GN-8926-0047            Generator           14,000
      Khost        Kabul         C136-KO-8926-0003            Generator           15,100
      Kunar        Kabul         C136-KU-8926-0017            Generator           23,340
    Laghman        Kabul         C136-LA-8926-0006            Generator           30,805
    Laghman        Kabul         C136-LA-8926-0007            Generator           23,090
   Nangarhar       Kabul         C136-NG-8926-0043            Generator           32,700
     Nimrus        Zabul         C136-NR-8926-0030            Generator           18,750
     Paktika       Kabul         C136-PK-8926-0024            Generator           13,400
     Paktika       Kabul         C136-PK-8926-0031            Generator           13,800
  Paktia/Gardez    Khost         C136-PT-8926-0007            Generator           14,600
  Paktia/Gardez    Khost         C136-PT-8926-0034            Generator           17,500
  Paktia/Gardez    Kabul         C136-PT-8926-0039            Generator            9,900
     Wardak        Kabul         C136-WD-8926-0002            Generator           14,700
     Wardak        Kabul         C136-WD-8926-0094            Generator           11,500

  Total missing equipment                                                       $284,285

Additionally, there were 21 assets with a cost of $379,988, which were indicated as having been
donated, and 3 assets with a cost of $44,250, which were indicated as damaged. However, CADG
failed to report these donated or damaged assets to USAID. The donated and damaged assets were
as follows. Additionally, the total fair market value of the donated and/or damaged assets is $180,878.




                                                  43
                     CENTRAL ASIA DEVELOPMENT GROUP, INC.

                           Financial Audit of Costs Incurred under
                      Cooperative Agreement No. 306-A-00-09-00511-00

                                   Findings and Responses

                                           (Continued)


2013-7: Lack of Support for Transferred, Donated and Damaged Assets (Continued)

                                                        Item
            Province              Asset ID           Description   Amount
        Donated assets:
         Badghis             C136-BG-8926-0011       Generator     $ 16,720
         Badghis             C136-BG-8926-0012       Generator       20,900
         Dand-Daman          C136-DD-8926-0005       Generator       13,000
         Daikundi            C136-DK-8926-0006       Generator       19,800
         Daikundi            C136-DK-8926-0022       Generator       14,000
         Farah               C136-FR-8926-0011       Generator       16,500
         Farah               C136-FR-8926-0028       Generator       14,900
         Ghor                C136-GO-8926-0001       Generator       21,400
         Ghor                C136-GO-8926-0002       Generator       17,220
         Herat               C136-HR-8926-0047       Generator       18,500
         Herat               C136-HR-8926-0048       Generator       17,500
         Kandahar            C136-KN-8926-0060       Generator       26,900
         Laghman             C136-LG-8926-0032       Generator       13,200
         Nangarhar           C136-NG-8926-0005       Generator       16,548
         Paktika             C136-PK-8926-0025       Generator       13,400
         Paktika             C136-PK-8926-0034       Generator       14,200
         Uruzgan             C136-UR-8926-0005       Generator       12,900
         Uruzgan             C136-UR-8926-0039       Generator       26,900
         Uruzgan             C136-KN-8926-0060       Generator       26,900
         Zabul               C136-ZB-8926-0016       Generator       21,200
         Zhari-Panjwaye      C136-ZP-8926-0008       Generator       17,400
        Total donated assets                                        379,988
        Damaged assets:
         Khost               C136-KO-8926-0004       Generator         15,100
         Nangarhar           C136-NG-8926-0011       Generator         13,200
         Zabul               C136-ZB-8926-0003       Generator         15,950
        Total damaged assets                                           44,250

        Total donated and damaged assets                           $424,438




                                               44
                         CENTRAL ASIA DEVELOPMENT GROUP, INC.

                               Financial Audit of Costs Incurred under
                          Cooperative Agreement No. 306-A-00-09-00511-00

                                       Findings and Responses

                                              (Continued)


2013-7: Lack of Support for Transferred, Donated and Damaged Assets (Continued)

Cause:
CADG did not have sufficient management capacity to monitor and ensure transferred assets were
properly tracked as required in its finance manual. The personnel responsible for tracking the assets
did not update the records to reflect the new location to which the assets were transferred. In addition,
failure to inform USAID of the donated and damaged equipment was due to CADG being unaware that
formal notification to USAID was required. Finally, periodic repair and maintenance procedures were
not in place to prevent equipment from being damaged. The fair market value was determined through
online queries of used equipment.


Criteria:
22 CFR 226.34, Equipment, states, in part:

       “…(f) The recipient’s property management standards for equipment acquired with
       Federal Funds and federally-owned equipment shall include all of the following:…

       (4) A control system shall be in effect to insure adequate safeguards to prevent loss,
       damage, or theft of the equipment. Any loss, damage, or theft of equipment shall be
       investigated and fully documented; if the equipment was owned by the Federal
       Government, the recipient shall promptly notify the Federal awarding agency with whose
       funds the equipment was purchased…

       (h) USAID reserves the right to transfer the title to the Federal Government or to a third
       party named by the Federal Government when such third party is otherwise eligible
       under existing statutes. Such transfer shall be subject to the following standards:

       (1) The equipment shall be appropriately identified in the award or otherwise made
       known to the recipient in writing.

       (2) USAID shall issue disposition instructions within 120 calendar days after receipt of a
       final inventory. The final inventory shall list all equipment acquired with award funds and
       federally-owned equipment. If USAID fails to issue disposition instructions within the
       120 calendar day period, the recipient shall apply the standards of this section, as
       appropriate.

       (3) When USAID exercises its right to take title, the equipment shall be subject to the
       provisions for federally-owned equipment.”




                                                   45
                        CENTRAL ASIA DEVELOPMENT GROUP, INC.

                              Financial Audit of Costs Incurred under
                         Cooperative Agreement No. 306-A-00-09-00511-00

                                       Findings and Responses

                                             (Continued)


2013-7: Lack of Support for Transferred, Donated and Damaged Assets (Continued)

CADG Finance Policies & Procedures dated April 2012, Section 600.5-A4, Transfer or Disposal of
Fixed Assets, states in part:

       “…c. Verification of the asset disposal or transfer needs to be done by the PM/DPM.
       The form is then routed to AFM/FM and then to SFT for final approval by the President.

       d. Upon completion of the approval process, the PM/DPM will update Fixed Asset
       Register on the changes…”

Additionally, CADG Finance Policies & Procedures dated April 2012, Section 600.5-A5, Reporting
Fixed Assets, states in part:

       “a. On a monthly basis, the Fixed Assets (FA) Supervisor is required to perform physical
       asset cycle count on a rotational basis, covering at least 30% of the total tagged assets
       country wide each month using the barcode scanner. When visiting a province, the FA
       Supervisor performs a full physical count of the asset inventory.

       b. Updating of Fixed Asset Register in the province and centralized Fixed Asset
       database in Kabul is required if any of the following changes take place:
          - Location of the equipment
          - Condition of the equipment
          - Disposal or transfer of equipment…”


Effect:
Without maintaining evidence of equipment transfers and obtaining approval from USAID for donated
and/or damaged equipment, assets could be sold and the proceeds used for something other than the
objective of the Agreement without USAID’s knowledge. The cost of the transferred assets that were
missing was $284,285. Total questioned costs of assets transferred and the fair market value of
donated and/or damaged assets were $465,163.


Recommendation:
   (1) We recommend that CADG provide evidence to USAID to support that all of the equipment
       identified in the finding was maintained, or disposed of, in compliance with the Agreement and
       CFR or return $465,163 for the unsupported transferred, donated and damaged assets.




                                                  46
                       CENTRAL ASIA DEVELOPMENT GROUP, INC.

                             Financial Audit of Costs Incurred under
                        Cooperative Agreement No. 306-A-00-09-00511-00

                                     Findings and Responses

                                           (Continued)


2013-7: Lack of Support for Transferred, Donated and Damaged Assets (Continued)

   (2)   We recommend that CADG provide training to field personnel regarding the provisions of its
         CADG Finance Policies & Procedures related to equipment.

   (3)   We recommend that CADG establish procedures to ensure that all disposed equipment be
         properly tracked and reported as required by the Agreement and 22 CFR 226.34.




                                                47
                        CENTRAL ASIA DEVELOPMENT GROUP, INC.

                              Financial Audit of Costs Incurred under
                         Cooperative Agreement No. 306-A-00-09-00511-00

                                      Findings and Responses

                                            (Continued)


2013-8: Advances Not Maintained in an Interest Bearing Account

Condition:
CADG has received funds under the Agreement in advance of incurring allowable costs. The funds
received were not maintained in an interest bearing account.


Cause:
CADG was not familiar with the CFR requirements related to maintaining advances of Federal funds in
an interest bearing account.


Criteria:
22 CFR 226.22, Payment, states, in part:

          “…(k) Recipients shall maintain advances of Federal funds in interest bearing accounts…”


Effect:
Failure to deposit advances in an interest bearing account resulted in a loss of interest income that
could have been used to fund allowable costs under the Agreement. The estimated lost interest was
$9,613, which was calculated based upon the monthly advance cash on hand multiplied by the monthly
Federal Reserve rate approved throughout the entire period of performance.


Recommendation:
   (1) We recommend that CADG return $9,613 to USAID representing the amount of interest that
       would have been earned had the advance funds been maintained in an in an interest bearing
       account as required.

   (2)   We recommend that CADG establish a policy requiring that all advances of Federal funds be
         deposited into an interest bearing account.




                                                 48
                         CENTRAL ASIA DEVELOPMENT GROUP, INC.

                               Financial Audit of Costs Incurred under
                          Cooperative Agreement No. 306-A-00-09-00511-00

                                        Findings and Responses

                                              (Continued)


2013-9: Unallowable Costs Were Charged to the Agreement

Condition:
CADG included penalties, gifts, and celebrations expenses as part of other direct costs and charged
the following costs to the Agreement:

                                                 Number of
                                                transactions   Questioned
                   Observation                   with Errors     Cost
     Penalty fee for reissued Visa                    1         $ 461
     Gifts                                            2              45
     Ceremony expenses                                1            890

       Total ineligible expenses                        4        $1,396


Cause:
CADG was unfamiliar with applicable prohibitions on these types of costs.


Criteria:
48 CFR 31.205-15, Fines, penalties, and mischarging costs, states, in part:

       “(a) Costs of fines and penalties resulting from violations of, or failure of the contractor
       to comply with, Federal, State, local, or foreign laws and regulations, are unallowable.…”

Additionally, 48 CFR 31.205-13, Employee morale, health, welfare, food service, and dormitory costs
and credits, states, in part:

       “…(b) Costs of gifts are unallowable…”

Furthermore, 48 CFR 31.205-14, Entertainment costs, states, in part:

       “Costs of amusement, diversions, social activities, and any directly associated costs
       such as tickets to shows or sports events, meals, lodging, rentals, transportation, and
       gratuities are unallowable.…”




                                                   49
                           CENTRAL ASIA DEVELOPMENT GROUP, INC.

                                 Financial Audit of Costs Incurred under
                            Cooperative Agreement No. 306-A-00-09-00511-00

                                       Findings and Responses

                                             (Continued)


2013-9: Unallowable Costs Were Charged to the Agreement (Continued)

Effect:
CADG incurred $1,396 of ineligible costs which are unallowable costs per 48 CFR Part 31. Reporting
unallowable costs as legitimate costs raises concerns about the propriety of CADG’s billing and the
extent of such charges. Total questioned costs were as follows:

     Unallowable costs                                       $1,396
     Associated overhead                                        363

         Total ineligible costs                              $1,759


Recommendation:
   (1) We recommend that CADG either provide support and an explanation to USAID as to why the
       unallowable costs should be allowable, or return $1,759 in ineligible costs.

   (2)    We recommend that CADG provide training to its employees regarding the cost principles
          outlined in 48 CFR Part 31 and develop more effective policies and procedures to prevent
          ineligible costs from being charged as reimbursable costs.




                                                 50
                          CENTRAL ASIA DEVELOPMENT GROUP, INC.

                                Financial Audit of Costs Incurred under
                           Cooperative Agreement No. 306-A-00-09-00511-00

                                          Findings and Responses

                                                (Continued)


2013-10: Lack of Adherence to Policies and Procedures

Condition:
CADG did not properly follow its established policies and procedures when administering the
Agreement. A total of 982 transactions were tested and the following observations were noted where
policies and procedures were not followed. These errors did not result in questioned costs as other
evidence existed for review to support that the cost was reasonable, allowable and allocable to the
Agreement.

                                                                                         Number of
                                                                                        transactions
                                        Observation                                      with Errors
     Travel and transportation:
       Purpose of the travel was not documented                                               17

     Subtotal travel and transportation                                                       17

     Program costs – CFW:
      Approval of payment was by a different management employee than that per
        CADG policy                                                                           23
      Approval of payment was by a different management employee than that per
        CADG policy; missing cash advance request form                                         6
      Approval of payment was by a different management employee than that per
        CADG policy; cash advance form not complete                                            2
      Approval of payment was by a different management employee than that per
        CADG policy; missing CFW project number on payment record; missing cash
        advance request form                                                                   1
      Approval of payment was by a different management employee than that per
        CADG policy; no liquidation date on the cash advance form                              2
      Approval of payment was by a different management employee than that per
        CADG policy; missing reference to cash advance request form on payment
        voucher                                                                                1
      Missing cash advance request form                                                        2
      Missing reference to cash advance request form on payment voucher                        3
      Purchase requisition date is after contract date                                         1
      Missing CFW project number on payment record; missing cash advance
        request form                                                                           1
      Signature on the payment voucher is different from the signature on the invoice          1

     Subtotal program costs – CFW                                                             43




                                                      51
                          CENTRAL ASIA DEVELOPMENT GROUP, INC.

                                 Financial Audit of Costs Incurred under
                            Cooperative Agreement No. 306-A-00-09-00511-00

                                         Findings and Responses

                                                (Continued)


2013-10: Lack of Adherence to Policies and Procedures (Continued)

                                                                                    Number of
                                                                                   transactions
                                         Observation                                with Errors
     Other direct costs:
      Approval of payment was by a different management employee than that per
        CADG policy                                                                       3
      Approval of payment was by a different management employee than that per
        CADG policy; no liquidation date on the cash advance form                         1
      Approval of payment was by a different management employee than that per
        CADG policy; missing cash advance request form                                    1
      Approval of payment was by a different management employee than that per
        CADG policy; invoice date and payment voucher date were before the
        purchase order date                                                               1
      Missing cash advance request form                                                   4
      Contract date was before the purchase order date                                    1
      Invoice date was before the purchase order date; cash advance request form
        was not liquidated within the required timeframe                                  1
      Missing signed justification for sole source                                        1
      Cost Price Analysis & Competition Form date was before the purchase
        requisition date                                                                  1
      Management approval was after payment                                               1
      Invoice date was before the purchase order date                                     7
      Purpose of the purchase was not documented                                          2

     Subtotal other direct costs                                                         24

     Expensed equipment and vehicles:
      Approval of payment was by a different management employee than that per
        CADG policy                                                                       3
      Missing cash advance request form                                                  10
      Missing documentation of who was assigned laptops                                   2
      Missing third quotation                                                             2
      Invoice date was before the purchase order date                                     1
      Invoice date was before the purchase requisition date                               1
      Invoice date was after the payment voucher date                                     2
      Missing cash advance request form; management approval was after the
        payment voucher date                                                              1
      Missing cash advance request form; invoice date was after the payment
        voucher date                                                                      1
      Missing signature on cash advance form documenting receipt of advance               1

     Subtotal expensed equipment and vehicles                                            24

     Total number of errors due to lack of adherence to policies and procedures        108




                                                     52
                        CENTRAL ASIA DEVELOPMENT GROUP, INC.

                              Financial Audit of Costs Incurred under
                         Cooperative Agreement No. 306-A-00-09-00511-00

                                       Findings and Responses

                                             (Continued)


2013-10: Lack of Adherence to Policies and Procedures (Continued)

Cause:
This condition occurred because management did not effectively monitor the program to ensure that all
required approvals and documentation were properly obtained, completed and maintained.


Criteria:
CADG’s Community Development Program Finance Training Slides of training provided at the
beginning of the project, slides 13 to 15, states, in part:

       “Procurement Value – Between USD500.00 and USD4,999.99
       1) Raise PR*
       2) Obtain minimum three written quotes
       3) Cost Price Competition or Sole Source Justification Form
       4) For Purchase Order – Two levels of approvals required…

       * PR [Purchase Requisition] Form need to be raised for ALL purchases

       Procurement Value – Between USD5,000.00 and USD19,999.99
       1) Raise PR
       2) Obtain minimum three written quotes
       3) Cost Price Competition or Sole Source Justification Form
       4) For Purchase Order – Three levels of approvals required…

       Procurement Value – Above USD20,000.00
       1) Raise PR
       2) Obtain minimum three written quotes
       3) Cost Price Competition or Sole Source Justification Form
       4) For Purchase Order – Four levels of approvals required…”

CADG’s Community Development Program Finance Training Slides of training provided at the
beginning of the project, slide 12, documents a flow chart of the procurement process. According to the
flowchart, the order of the procurement process is as follows:

         •   Purchase requisition
         •   Outsource for suppliers
         •   Obtain three written quotations, or one written quotation and complete a Sole Source
             Justification Form
         •   Prepare Cost Price Analysis & Competition Form, indicate why a third quotation was not
             obtained
         •   Purchase order



                                                  53
                        CENTRAL ASIA DEVELOPMENT GROUP, INC.

                              Financial Audit of Costs Incurred under
                         Cooperative Agreement No. 306-A-00-09-00511-00

                                       Findings and Responses

                                              (Continued)


2013-10: Lack of Adherence to Policies and Procedures (Continued)

        •   Supplier invoice, receipt, or contract
        •   Justification letter
        •   End of documentation

CADG Finance Policies & Procedures dated July 2011, states, in part:

        “…200.5-A1, Cash Advances…

        (c) Cash liquidations under this policy must be liquidated within 15 days of the transaction…

        300.5-A2, Purchase Requisition…

        (b) To initiate a purchase of goods or services, a purchase requisition is raised by the
        requesting employee…

        (f) All purchase requisitions, however, do not move forward in the process without initial
        approval from the Provincial Manager or Deputy Provincial Manager, or other Senior
        Manager…

        300.5-A3, Procurement Flow…

        (c) For goods or services that cost the equivalent of $500 USD or more, three written
        quotations must be obtained from vendors. Bids are compiled using the Cost Price Analysis &
        Competition Form (CPA), and the winning bid is chosen.

        (d)…When there are only two (2) vendors available to give quotations, the CPA is completed
        with a notation in the area reserved for the third vendor stating that only two were available…

        300.5-A6, Property Lease Contracts…

        (c) The Property Lease Contract must be completed in full, signed by the property owner, and
        then approved and signed by the Chief of Party…

        300.5-A11, Cash-for-work (CFW) Payments…

        (b) All payment records should contain the following details:
            • CFW project number…”




                                                     54
                       CENTRAL ASIA DEVELOPMENT GROUP, INC.

                             Financial Audit of Costs Incurred under
                        Cooperative Agreement No. 306-A-00-09-00511-00

                                     Findings and Responses

                                           (Continued)


2013-10: Lack of Adherence to Policies and Procedures (Continued)

CADG Finance Policies & Procedures dated April 2012, Section 200.5-A1, Cash Advances, states, in
part:

       “…(e) Cash liquidations under this policy must be liquidated within 30 days of the
       transaction…”


Effect:
Failure to follow the developed control procedures in place and maintain all records can result in
CADG’s inability to demonstrate that projects were completed and USAID funds were used for their
intended purpose.


Recommendation:
We recommend that CADG provide training to all personnel related to its Finance Policies &
Procedures to ensure all established policies and procedures are followed, program documentation is
properly maintained, and adequate authorizations are obtained.




                                                55
                         CENTRAL ASIA DEVELOPMENT GROUP, INC.

                               Financial Audit of Costs Incurred under
                          Cooperative Agreement No. 306-A-00-09-00511-00

                                        Findings and Responses

                                              (Continued)


2013-11: Lack Adherence to Employment Policy for Local Afghans

Condition:
Personnel files for 43 local Afghan employees contained no evidence that a background check and
performance evaluations were performed. Additionally, résumés were missing in 18 of the files.


Cause:
CADG relies on the local Afghans for recommendations of potential employees. CADG does not
conduct performance evaluations for local Afghan managers. In instances where CADG did not obtain
a résumé, it claimed that it questioned employees about their work history to determine that the
individuals were qualified for the position. However, CADG failed to document such inquiries in
personnel files.


Criteria:
CADG Afghanistan Hiring and Termination Procedure Document, section 2, Process, states, in part:

       “…Each resume we receive is passed on to the PM/DPM or other manager, seeking to
       fill the vacancy in question. Here is a short list of the materials used during recruitment.

            •   Position Requisition form
            •   Job Description
            •   Job Advertisement - details & date
            •   Number of applications received
            •   Shortlisted candidate names
            •   Interview summary report
            •   Offered to (name/s)
            •   Name of accepting candidate

       After receiving resumes, we select most likely candidates for a given position and then
       review their personal information and histories for any indications that they may cause
       problems. This vetting step is new.”

Additionally, CADG Afghanistan Hiring and Termination Procedure Document, section 3, Proper Vetting
& Background Checks, states, in part:

       “Proper vetting requires the following information:




                                                   56
                           CENTRAL ASIA DEVELOPMENT GROUP, INC.

                                Financial Audit of Costs Incurred under
                           Cooperative Agreement No. 306-A-00-09-00511-00

                                        Findings and Responses

                                               (Continued)


2013-11: Lack Adherence to Employment Policy for Local Afghans (Continued)

          Item              Reason
          Personal          Protect against identity theft and fraud using a
          Identity:         cross-referencing check over a number of data
                            sources.
          Employer          Obtain personal references from sources
          References        provided by a prospective employee, such as
                            previous supervisors, customers, suppliers.
          Employment        Confirm past employment history, periods of
          History           (un)employment, positions held and reason for
                            leaving (where available).
          Qualifications    Provide protection against bogus educational and
                            professional qualifications by validating them with
                            the relevant institutions.
          Memberships       Provide protection against bogus professional
                            memberships by validating them with the relevant
                            granting body.
          Directorships     Validate current and previous Directorships and
                            highlights any disqualifications that are in place.
          Criminal          Check with the Criminal Record Bureau for the
          Records           existence of any current criminal record.
          Checks            Additional records checks should be carried out
                            through MOI. “

Furthermore, CADG Human Resources Policies for International Contractors, International Contractors
Based in Afghanistan, Section 12, Access to Personnel Files, states, in part:

       “CADG maintains a personnel file on each contractor. The personnel file includes
       information such as the contractor’s job application, resume, records of training,
       documentation of performance appraisals and salary increases, and other employment
       records…”


Effect:
Lack of obtaining resumes and background documentation for the local Afghans can lead to CADG
hiring individuals who may not be qualified for the position or who may be affiliated with a terrorist
group. Additionally, not performing regular performance evaluations can lead to employees not
benefiting the program and are not meeting the minimum standard required of the position.




                                                    57
                       CENTRAL ASIA DEVELOPMENT GROUP, INC.

                             Financial Audit of Costs Incurred under
                        Cooperative Agreement No. 306-A-00-09-00511-00

                                    Findings and Responses

                                          (Continued)


2013-11: Lack Adherence to Employment Policy for Local Afghans (Continued)

Recommendation:
We recommend that CADG provide training to field personnel related to its Hiring and Termination
Procedures Document to ensure that background checks are performed, résumés are obtained,
performance evaluations are performed on a reoccurring basis, and personnel files are maintained.




                                               58
                                                                                                 APPENDIX A
                          CENTRAL ASIA DEVELOPMENT GROUP, INC.

                                 Financial Audit of Costs Incurred under
                            Cooperative Agreement No. 306-A-00-09-00511-00

                                    Detailed Results for Finding 2013-3

                          For the Period March 12, 2009 through June 30, 2013


The following represents the details of the individual errors identified as a result of testing the CFW
Program.

                                                                                Number of
                                                                               Transactions      Questioned
                                    Observation                                with Errors (a)     Cost
  Missing worker's position on payment records                                          2         $ 2,347
  Fingerprint is illegible                                                              1                89
  Fingerprints are similar                                                              6             5,722
  Missing fingerprints                                                                  2             7,267
  Missing worker's position on payment record; missing fingerprints                     1               112
  Fingerprints are similar; missing fingerprints                                        1               115
  Fingerprints are similar; missing finger prints; payment to worker is
    incorrectly calculated                                                             2              5,720
  Missing father's name on payment record                                              6              1,303
  Missing fingerprint and missing father's name on payment record                      1                103
  Fingerprints are similar; missing father's name on payment records                   1              1,076
  Missing fingerprints; missing worker's name on payment record; missing
    worker's position on payment record; payment is incorrectly calculated;
    amount paid does not match supporting documentation                                1              3,273
  Missing worker's name on payment record; missing father's name on
    payment record                                                                     1               811
  Missing worker's position on payment record; similar fingerprints; payment
    to worker is incorrectly calculated                                                1               785
  Missing father's name on payment record; missing worker's position on
    payment record; payment to worker is incorrectly calculated                        1              4,638
  Missing father's name on payment record; missing worker's name on
    payment record                                                                     1              2,145
  Missing CFW project number on payment record; missing worker's position
    on payment record                                                                  1               325
  Missing father's name on payment record; missing worker's position on
    payment record                                                                     1              2,013
  Missing father's name on payment record; changes made with white out                 1                625
  Missing father's name on payment record; missing fingerprints                        1                651
  Worker's name on timesheet does not match worker's name on contract                  1                300
  Missing acknowledgment of receipt                                                    4             44,120
  Missing driver's signature on tracking log                                           1              2,274
  Different fingerprints and signatures for the same driver                            1              3,337
  Missing invoice                                                                      3             58,274
  Missing driver's signature on tracking log                                           1                359
  Missing invoice; missing CFW project description                                     1              3,462
  Missing either acknowledgment of receipt or invoice for multiple payments
    under one payment voucher; signature for acknowledgment of receipt by
    vendor appears different from vendor signature on original quotation               1             27,410
  Payment made to employee who did not request a cash advance and only
  supplier’s invoice documented; missing supplier’s acknowledgement of



                                                      59
                                                                                                      APPENIDIX A
                            CENTRAL ASIA DEVELOPMENT GROUP, INC.

                                  Financial Audit of Costs Incurred under
                             Cooperative Agreement No. 306-A-00-09-00511-00

                                      Detailed Results for Finding 2013-3

                                                    (Continued)


                                                                                     Number of
                                                                                    Transactions      Questioned
                                     Observation                                    with Errors (a)     Cost
  cash receipt for service performed                                                         2         $ 42,182
  Unable to determine who is the individual that received payment                            1           14,364
  Missing invoice; missing detailed tracking log showing mileage and time to
    and from location for driver delivering materials; inconsistent rate used for
    same divers going to the same location on different date (in one extreme
    case rate ranged from $15 to $1,100 per trip); identical fingerprints or
    signature for different drivers; different fingerprints or signature for the
    same driver; payment to drivers was usually a few months after the
    service performed (raises doubt whether the drivers can recall the
    number of trips actually performed); date cash paid to driver is different
    from the date the driver signed the acknowledgement of cash receipt                    28           701,547
  Lack of management approval                                                               1            40,262
  Missing invoice; missing detailed tracking log showing mileage to and from
    location for drivers delivering material; inconsistent rate used for drivers
    going to the same location; tracking logs were modified using pen or
    whiteout and the number of trips were modified to two decimal places
    (e.g. 32.38) in order to match the payment amount; and different dates for
    date paid and acknowledgment of receipt                                                 1             20,447

  Total questioned costs                                                                   78          $997,458


(a)   The number of transactions with errors represents the number of instances this observation
      occurred for the individual sample. An individual sample could include multiple timesheets.




                                                         60
                                                                                          APPENDIX B
                         CENTRAL ASIA DEVELOPMENT GROUP, INC.

                               Financial Audit of Costs Incurred under
                          Cooperative Agreement No. 306-A-00-09-00511-00

                                         Response to Findings

                         For the Period March 12, 2009 through June 30, 2013


Included on the following pages is CADG’s response received to the findings identified in this report. In
addition to the narrative response, CADG provided documentation that, in its opinion, supports its
position on various findings. Due to the voluminous and proprietary nature of this documentation, it has
not been included within this report. The documentation has been provided to SIGAR under separate
cover.




                                                   61
                                                       APPENDIX B




CADG MANAGEMENT COMMENTS


          Dated: 12th December 2013




   CENTRAL ASIA DEVELOPMENT GROUP, INC.

      Financial Audit of Costs Incurred Under
  Cooperative Agreement No. 306-A-00-09-00511-00

 For the Period March 12, 2009 through June 30, 2013




                                                                    1
                         62
                                                                                 APPENDIX B


                       CENTRAL ASIA DEVELOPMENT GROUP, INC.
                             Financial Audit of Costs Incurred under
                        Cooperative Agreement No. 306-A-00-09-00511-00
                                    Findings and Responses
                                         (Continued)



                       For the Period March 12, 2009 through June 30, 2013

2013-1: Lack of Adequate Control Over Cash-For-Work (CFW) Laborers’ Attendance and
Payment Reconciliations


Management Response:

On 15 November 2013 CADG returned $445,808 to USAID as direct payment for the theft of federal
funds which occurred in the Zabul province between July 2012 and December 2012.

Since the amount has been returned to USAID and CADG did not claim it as a direct expense for CDP,
there was no associated OH Cost of S$115,910.00. CADG bore this loss as a company expense paid for
with private funds.




                                               63                                                    2
                                                                                         APPENDIX B


                          CENTRAL ASIA DEVELOPMENT GROUP, INC.
                                Financial Audit of Costs Incurred under
                           Cooperative Agreement No. 306-A-00-09-00511-00
                                       Findings and Responses
                                              (Continued)


2013-2: Lack of Cost Analysis to Determine Whether Lowest Priced Airfare was Incurred

Management Response:

CADG takes exception to the auditor’s assertion that commercial flights were not competitively bid as
well as that the charges for airfare on CADG owned airplanes are not supported and does not deem this
assertion as fair and reasonable.

CADG’s commercial flights were competitively bid as a condition of CADG’s competitively awarded
cooperative agreement. The travel management companies, Corporate Travel and BCD, were awarded
contracts in 2009 and 2011 respectively. Based on timely and quality services, the relationships with
these companies were maintained. Under FAR 31.205-46, the use of travel agencies is an allowable
travel cost and is standard industry practice. This standard industry practice applies to the CDP program
as there were up to 140 Expats and Third Country Nationals (TCN’s) who were required to travel.
Additionally, up to 200 local Afghans were frequently required to fly from province to province, depending
on the size of the project in their respective region. Obtaining multiple bids per flight under this scenario
is and was not cost feasible. Therefore, we maintain that the usage of third party vendors whose
contract was compliant with FAR 31.205-46 is not only standard industry practice, but provides a fair and
reasonable justification for the purchased airfare.

It is important to note that CADG was responsible for internal flights within Afghanistan flown on local
airlines (or the CADG plane), as well as for the R&R leave for Expats and TCN’s, who were entitled to up
to four return trips to their respective home countries each year. Given the degree of travel requirements,
it was necessary for CADG to quickly negotiate and implement a travel arrangement with a third party
provider who would be able to address the volume of travel requirements, whilst at the same time,
provide access to the most reasonable, logical and practical fare, available at any given time.

In order to meet these requirements as well as those outlined in the agreement with USAID, CADG met
with three separate travel management companies (TMC’s) to determine which would meet all of our
necessary specifications. In doing so CADG wished to ensure that we had more control on our travel
spending and achieve cost savings, maintain policy compliance, retain ability to track travellers in case of
emergencies and enhance security considerations.

The formal evaluation process behind the decision to appoint Corporate Travel and BCD, our TMC
during the five phases of CDP, reviewed key requirements of the vendor:

     Technical capabilities, such as the usage of an international Global Distribution System (GDS),
      online profile management and reporting.

      The TMC’s CADG worked with used Amadeus as their GDS, which is a large, international GDS
      used by most travel agencies worldwide, and which gave them direct access to the lowest, and
      most reasonable fares in the air fare market. This type of system therefore enabled us to easily


                                                    64                                                          3
                                                                                                     APPENDIX B


                             CENTRAL ASIA DEVELOPMENT GROUP, INC.
                                   Financial Audit of Costs Incurred under
                              Cooperative Agreement No. 306-A-00-09-00511-00
                                            Findings and Responses
                                                    (Continued)


        access the best fare available at the time of booking, and further outlined additional options, which
        gave flexibility if it was required.

       Experience and knowledge of their travel booking/counsellors.

       Global reach.

       Reasonable pricing and transaction fees.

       Service including after sales services (e.g. in any case of emergency).

       Flexibility (nominal fee charged for any changes).

In addition to the above requirements, it was important for CADG that the TMC had offices worldwide,
experience at servicing similar accounts, travel counsellors with many years of experience and advanced
training in airfare sourcing, usage of GDS and complex itineraries, which is a key factor in ensuring that
the best rates are made available to clients. Their transaction fees were also reasonable, which was also
a critical factor in the decision to formalize an arrangement with them.

CADG agreed to terms where ("the Contractor’s”) responsibility was to offer the “lowest logical fare" at
the time of booking, which often included restricted non-refundable fares. At times the TMC was asked to
provide slightly higher fares to allow the needed flexibility for ticket changes. Ticket flexibility is especially
important when working in a country such as Afghanistan where security issues or a project issue
requiring the immediate attention of the traveller would often interfere with a predetermined travel
schedule.

CADG’s contract with BCD gave the clear mandate that BCD Travel had to provide CADG with the
lowest logical fare (LLF) as per the CADG Travel Policy. According to the contract, the Lowest Logical
Fare (LLF) is defined:

   a.   Uses a regularly scheduled commercial carrier;
   b.   Prohibits preference for any airline, type of aircraft and connecting airports;
   c.   May require one plane transfer both departing and returning;
   d.   Departs from the airport nearest to the employee's location
   e.   Allows for minimum 3 hours connecting time in Dubai.



NB The LLA is not applicable to travel to and from USA where in most cases we need to comply with Fly America Act
http://www.ogc.doc.gov/ogc/fl/fald/itl/itlv14.pdf this is for travellers under direct US government funding.

In addition to our contracts with Corporate Travel and BCD, who were predominantly responsible for
arranging all international travel during CDP, CADG also negotiated agreements with Dubai-Afghanistan




                                                           65                                                        4
                                                                                           APPENDIX B


                          CENTRAL ASIA DEVELOPMENT GROUP, INC.
                                 Financial Audit of Costs Incurred under
                            Cooperative Agreement No. 306-A-00-09-00511-00
                                        Findings and Responses
                                               (Continued)


charter carriers. These carriers operated scheduled flights on various Afghanistan routes with discounted
fares and waiver of penalties in case of changes at short notice.

With reference to the issues raised by the auditors concerning our the CADG plane, we would like to
reiterate that numerous international companies working in Afghanistan during the period of CDP,
regularly used our plane, and did so not only because of the points outlined immediately below, but also
because of the reasonable nature of the airfares, the routes flown, our adherence to security protocols as
well as our scheduling. Reason stand that had our flight costs not been competitive, CADG would not
have attracted the high volume of business as seen in 2011, when CDP only represented only 13%
(yearly average) of overall passenger volume. Please note the following key points which were raised at
the time of audit:

      Unlike the CADG plane, DFS only fly from the Military ramp in Kandahar. Therefore no local
       nationals are allowed on their aircrafts. CADG were the only company that would fly from the
       Kandahar civilian ramp to Camp Bastion, Lash, Farah (Afghanistan). The only other airlines that
       flew from the civil ramp were Ariana or Kamair, and these airlines would fly to Kabul and then you
       would connect to Herat or to other airfields. This would mean over-nighting in Kabul, in order to get
       from KAF and other airports.

      Most airfields were controlled by the military. So similarly to what is outlined in the above point,
       there are significant and onerous restrictions, and no local carriers were permitted to fly to airfields
       like TK. It would only be foreign companies similar to CADG.

      We also had projects in Zaranj, a province which no airline would fly to, with the exception of
       CADG. Pactec, another airline based in Afghanistan, stated in their price list that they did fly to
       Zaranj, however it is important to note that because of security issues and the inherent dangers
       within the province, Pactec have not in fact flown there for the past three years.

      Airfields like Salerno, Sharana, Gardez, and Qalat were only flown to by CADG and Embassy Air,
       however for the majority of the duration of CDP, Embassy Air, chose to cancel all flights to these
       areas due to security related issues. Please also note that no local Afghan airlines flew to these
       provinces at the time.




Safety of local carries ( Afghanistan airlines):

The below extract was taken from the State Department website which states that US personnel should
not travel on the local Afghan airlines and serves as an explanation as to why local airlines were not
utilized even if they were lower cost. As a US Company, CADG adhered to the regulations on the State
Department website.




                                                      66                                                          5
                                                                                           APPENDIX B


                           CENTRAL ASIA DEVELOPMENT GROUP, INC.
                                 Financial Audit of Costs Incurred under
                            Cooperative Agreement No. 306-A-00-09-00511-00
                                        Findings and Responses
                                               (Continued)


AVIATION SAFETY OVERSIGHT: As there is no direct commercial air service to the United States by
carriers registered in Afghanistan, the U.S. Federal Aviation Administration (FAA) has not assessed the
government of Afghanistan’s Civil Aviation Authority for compliance with International Civil Aviation
Organization (ICAO) aviation safety standards. Further information may be found on the FAA’s safety
assessment page.

U.S. government personnel are not permitted to travel on most Afghan airlines due to these ongoing
safety concerns and the lack of Afghan government safety oversight capabilities. U.S. government
personnel may travel into and out of Afghanistan on international flights operated by airlines from
countries whose civil aviation authorities meet the safety standards for the oversight of their air carrier
operations under the FAA’s International Aviation Safety Assessment (IASA) program. Such countries
with airlines that operate to Afghanistan have included India, Pakistan, Bahrain, Germany, Turkey, and
the United Arab Emirates.




                                                      67                                                      6
                                                                                           APPENDIX B


                         CENTRAL ASIA DEVELOPMENT GROUP, INC.
                                Financial Audit of Costs Incurred under
                           Cooperative Agreement No. 306-A-00-09-00511-00
                                       Findings and Responses
                                              (Continued)


2013-3: Lack of Complete Documentation to Support CFW Program


Management Response:

CADG concurs with the importance of ensuring that adequate documentation should have been obtained
and maintained throughout the course of the Community Development Program. However, we would like
to reiterate that the majority of the 78 (of 163 CFW Programs transactions tested during the audit) were
transactions that took place between 2009 and 2010 while the CADG Finance Policies & Procedures
which these exceptions were valuated against were implemented in April 2012. The transactions
tested between 2009 and April 2012 should have been tested against the procedures in place at that
time. Please note that while the procedure put in place in April 2012 enhanced CADG’s internal
controls, the prior procedures were in compliance with 22CFR226, as confirm ed by USAID’s preaward
survey. As the majority of the referenced exceptions were transactions that took place during the earlier
part of the program, we were unable to retrospectively rectify the lack of documentation which were
required post April 2012.

CADG has since continued to educate our team members and improve our systems to ensure that
proper justification and explanations would be in place and that adequate documentation would always
be obtained.

With reference to the various observations outlined by the audit team, we would like to make the
following comments:



  CFW Employees

     Regarding the missing father's name - it is frequently difficult for CADG to obtain the father's name
      as the majority of the local Afghans are afraid to put their family name down and thus be
      associated with US Government projects for fear of the safety of their family and themselves.
      Although we acknowledge there has, at times, been lack of adequate documentation, CADG as a
      company and an implementer of this program, has taken its best effort to obtain all relevant info
      required for documentation for the said CFW laborers.

     Regarding the concerns raised about finger prints. It is difficult and subjective to judge matters
      relating to fingerprints, given the study of such is subjective and is and in of itself, a subject which
      generally requires the expertise of a subject matter expert. However, we assume that the above
      referenced illegible fingerprints are those that appeared incomplete. The fingerprint noted on
      "Acknowledgement of Receipt" appearing incomplete could well be due to the surface where the
      thumb was printed on to the document, or alternatively could be low quality of the ink that resulted
      in an improper thumbprint.



                                                     68                                                          7
                                                                                     APPENDIX B


                       CENTRAL ASIA DEVELOPMENT GROUP, INC.
                             Financial Audit of Costs Incurred under
                        Cooperative Agreement No. 306-A-00-09-00511-00
                                    Findings and Responses
                                           (Continued)


    In cases where the fingerprints appeared different, yet were for the same CFW employee, we
    acknowledge that there were situations in the country, when one person had to receive payments
    for several people. As most CFW employees were illiterate it was difficult to request any
    authorization letter from people coming from such remote areas. There were also numerous
    occasions in which the Elder (the most respected individual in the province), would receive
    payment of behalf of CFW employees, due to the low level of literacy among many of the
    employees, who could neither read nor write.

   Due to various security issues on the sites, the salary payments to CFW employees were
    conducted in a safe place, such as the District or Provincial Governor’s house. This means that
    hundreds of people had to travel to one single destination to receive cash, and in numerous
    provinces within the country this was at times difficult to coordinate. This is the single most
    contributing factor to why, on a number of occasions, several individuals signed for cash payments
    on behalf of their village members. Given Afghanistan is a tribal country, and several related family
    members were often working on a single project, it also resulted in one member of the family being
    nominated to receive payments on behalf of his relatives.

   In situations where CFW employees were not paid for some reason (such as failing to be present
    for the collection of their cash payment), members of the CDP team would often hear from the
    employee as long as four to five months later, when they would just show up at the CADG office
    requesting immediate payment.

Vendors

   Vendor sourcing was always supervised and monitored by the local program manager and the
    expat program manager to ensure that procurement was carried out in a transparent, fair and
    value for the money basis. We understand that this should have been with additional attention to
    detail. We have made improvements to this process and have educated our team on providing
    more detailed explanations.

   CADG has an Internal Audit Team who randomly and periodically checks the “existence” of these
    vendors and ensures our procurements are done on a transparent and reasonable basis as much
    as possible.

   With reference to payments for vendors, the Ministry of Economy or Afghan Investment Support
    Agency requires two people to register a company: A President and Vice-President. Both of them,
    have the authority to sign documents, which explains why there are instances where payment
    vouchers appear with different signatures (or thumbprints) for the same vendor. Very often, Afghan
    vendors run their business with their family members, and some of these vendors travel outside of
    the country to conduct business which often results in a relative (father or brother) of a vendor to
    receive payment on their behalf for delivered materials or services.



                                                 69                                                         8
                                                                                      APPENDIX B


                       CENTRAL ASIA DEVELOPMENT GROUP, INC.
                             Financial Audit of Costs Incurred under
                        Cooperative Agreement No. 306-A-00-09-00511-00
                                    Findings and Responses
                                           (Continued)


   CDP Vendors’ were paid for materials or services provided only upon or after provision of their
    invoices to members of the CADG Finance and Operations Team. The vendors also signed the
    Payment Vouchers, which were accordingly treated as acknowledgment of receipt for cash
    received.

   In the majority of cases, vendors provided trucks to deliver goods and charged CDP by units of
    hours or days, and in these instances we did not request a detailed log of the trip. We were very
    conscious that truck drivers use different routes to deliver materials to the project sites in the
    interests of security as well as to avoid being traced so that their journeys were not predictable.

   The CDP team also used vendors from different parts of provinces, to give an opportunity to as
    many people as possible in that province to earn money. This is also a contributing reason as to
    why on occasions vendors who had heard about our program came from remote areas to provide
    delivery services. This accordingly would increase trip rates, as they had to bring materials from
    further afield.

   Trip rates also depended very much on the security situation from site to site, as there
    unfortunately were occasions where truck drivers were killed by the Taliban or IED’s/mines. Of
    course, as a result of the fatalities and the significant risk of the journey, the other vendors
    increased their prices immediately and many of our regular vendors decided not to proceed with
    existing arrangements.

   When these instances were detected, CDP took immediate steps provide additional training to the
    staff involved and gave instructions to Managers to be additionally vigilant to ensure such mistakes
    did not happen again.




                                                 70                                                        9
                                                                                        APPENDIX B


                         CENTRAL ASIA DEVELOPMENT GROUP, INC.
                               Financial Audit of Costs Incurred under
                          Cooperative Agreement No. 306-A-00-09-00511-00
                                       Findings and Responses
                                             (Continued)


2013-4: Missing or Insufficient Source Documentation to Support Expenses

Management Response:

Taking into consideration the size of the Community Development Program, we accept that some error
and oversight was sustained resulting in missing or insufficient source documentation to support all
incurred expenses.

In addition to the sheer scale of the Program, we also acknowledge that there is inherent risk, given the
number of staff and the differences in their level of their education and experience. Unfortunately human
error is a factor in business across all sectors and cultures and we have continually tried to educate our
staff and train them as these issues arose in the course of business.

Very often, financial documents had to be transported within the country and due to the sheer size of the
country as well as to security issues, several people were involved in the course of the transportation.
Unfortunately, this contributed to increased risk of documentation loss on a number of occasions.

According to the Section 300.5-A7 of the CADG Finance Policy, the Chief of Party should sign or
approve every lease agreement for vehicles and accommodation utilized for the purpose of the CDP
team members, across the numerous provinces. According to the Policy, the Chief of Party was required
to approve individual agreements in the beginning of each of the five phases. However, as the program
was extended several times, inclusive of no cost extensions, this frequently meant that the same
property and transportation equipment had to be used for additional month(s). On some occasions the
respective lease agreements were extended for one or two months, and had to be transacted and
finalized quickly to ensure we retained the transport and/or accommodation. We acknowledge that there
were occasions where the Chief of Party called upon the Provincial Managers to extend lease
agreements, without the COP’s signature. In spite of the lack of Chief of Party signature, the lease and
payment do support the allowability of the expense.

Regarding Receiving Inspection Reports (RIR), CADG Finance Policy required this document only for
construction materials (sand, gravel, stone and etc.) purchased for CFW projects. That is why there were
no RIRs provided for any other items purchased for office activities (other direct costs). The CADG team
identified that the Financial Policy had to be revised, and accordingly the requirement for purchases
above a certain threshold or for a certain category (e.g. Computer equipment) to be supported by an
RIR, was included into the Purchase Procedures.

The requirement for the Operations Team to fill in RIRs every time material was delivered; was however,
not always feasible to satisfy. The CDP program had some projects in very remote areas which is why
CADG local employees had to regularly visit the project sites to accept materials, and to track the
progress of the work. To do so they had to pass illegal Taliban check points. One of their main safety
concerns was carrying documents that associated them with an American company.



                                                   71                                                        10
                                                                                     APPENDIX B


                         CENTRAL ASIA DEVELOPMENT GROUP, INC.
                               Financial Audit of Costs Incurred under
                          Cooperative Agreement No. 306-A-00-09-00511-00
                                      Findings and Responses
                                            (Continued)


As previously mentioned, the vendors who worked with the CDP program provided invoices materials
delivered and services rendered to the CDP Team. At the same time, the vendor signed the payment
vouchers to acknowledge the receipt of cash. Accordingly, these documents were treated as proof that
the vendor was paid.

Whilst this policy was very clear and all relevant parties were aware of the procedures, there were
occasions when urgent payment was required. These exceptions occurred predominantly in the more
volatile provinces in the south and east of Afghanistan such as Helmand province, where at times it was
difficult to predict or plan some purchases. The CDP team was conscious when such exceptions were
made and endeavored to constantly improve its policies and procedures, to prevent such incident from
reoccurring.




                                                  72                                                      11
                                                                                       APPENDIX B


                         CENTRAL ASIA DEVELOPMENT GROUP, INC.
                               Financial Audit of Costs Incurred under
                          Cooperative Agreement No. 306-A-00-09-00511-00
                                      Findings and Responses
                                            (Continued)


2013-5: Lack Adherence to Timesheet Policy and the Terms of Employment Contract


Management Response:


CADG’s Timekeeping Policy for Local Nationals was formalized in April 2012, clearly outlining a
uniformed policy for the completion and control of Local National (LN) timesheets and attendance
reports; ensuring regulatory compliance with USAID Policy. This policy applies to all contracted LN
(Afghan) workers not part of the Cash for Work (CFW) program.

This policy was, in part, implemented because the majority of our LN’s were not literate, spoke different
languages (mainly Pashto and Dari) including local dialects, and therefore should not have been required
to sign anything that they could not read and thus understand.

Whilst we acknowledge the comments of our auditors for the SIGAR Audit, we believe that the below
summarized process provides in and of itself an adequate approval process, which encompasses (but is
not limited to) the Finance Officer, the Deputy Provincial Manager, the Provincial Manager, and ultimately
the HR department in Singapore.

Summary of process is as follows:

  •   Admin Officer maintains/monitors the daily attendance sheets.
  •   Admin Officer prepares the monthly attendance report.
  •   Attendance sheet is checked and signed by PM/DPM.
  •   Admin Officer submits the monthly attendance report to Kandahar office for checking, government
      tax charge and preparation of payroll.
  •   Kandahar office returns Payroll record to Provincial FO in Excel format.
  •   Finance Officer reconciles both the total number of employees and the man-days on the KOC
      payroll to the time sheets and attendance reports prepared. Any differences must be highlighted
      and sent back to Kandahar for correction. Once corrected, the final payroll should be sent from
      KOC to the provinces in PDF format.
  •   The FO and PM/DPM must sign the reconciliation between KOC Payroll and Attendance records,
      signifying their agreement with the payroll and its disbursement.
  •   The Admin Officer prepares a separate LN food allowance sheet based on attendance over the
      past month.
  •   Provincial Manager approves/signs the payroll for payments.
  •   Cashier distributes cash advance from FO to staff.
  •   Each staff member will thumbprint/sign that he received his salary on payroll sheet.




                                                   73
                                                                                                             12
                                                                                         APPENDIX B


                          CENTRAL ASIA DEVELOPMENT GROUP, INC.
                                 Financial Audit of Costs Incurred under
                            Cooperative Agreement No. 306-A-00-09-00511-00
                                        Findings and Responses
                                              (Continued)



Important Comments

Please note that with regard to the above mentioned “questioned costs”, upon returning to the US, Mayer
Hoffman continued to request data from CADG, relating to contracts for expatriates and as well as for
LN’s, which we furnished to them immediately. We had a great deal of communication with Mayer
Hoffman, who highlighted that at one point the questionable costs for expatriates was in excess of $450k,
and the LN’s just under $400k.

We were able to direct Mayer Hoffman to information we had previously uploaded to their server, which
ultimately, in the case of the expatriates, reduced the questionable cost to under $29k. This was verified
to us from Melissa just prior to their final comments issued early October 2013.

We additionally furnished information to them relating to the LN’s, which should have had the same or
similar effect to that information which was furnished for the expatriates, however this figure and the
degree of reduction was never advised to us by the auditors. We were extremely surprised to learn of the
figure in the report sent to us last weekend, and in turn, we are systematically going through items line by
line to determine what information they may have not downloaded, or is missing.


Please find attached Appendices A,& B , which is the supporting documentation relating to the
spreadsheets mentioned above, previously furnished to the auditing team.




                                                     74
                                                                                                               13
                                                                                          APPENDIX B


                          CENTRAL ASIA DEVELOPMENT GROUP, INC.
                                Financial Audit of Costs Incurred under
                           Cooperative Agreement No. 306-A-00-09-00511-00
                                        Findings and Responses
                                              (Continued)


2013-6: Lack of Adherence to Procurement Procedures


Management Response:

With reference to the above finding, CADG acknowledges that some documents may not be available.
However, CADG is of the opinion that, in relation to items procured during the course of CDP, all relevant
information was obtained to the “practical” “maximum extent”. We note the word “practical”, as required
by the regulation, was added post transaction testing and that the initial draft of the audit finding utilized
the word “possible.”

It is important to note that we do have key documentation to support the fact that items were paid for, and
were received, and can access evidence to demonstrate this.

With relation to the observation that documents were missing, we have advised that various mitigating
controls were developed through the course of CDP to ensure that transactions were carried out in the
best interests of the program and that supervisory controls like the approvals from the PM, DPM and etc.
were in place before payment was made.

We had also our internal audit team whose main role was to ensure that adequate controls were in place
and they played a key role to identity any lapses, and make the necessary rectifications including
preventive ones, in a timely manner.

To improve the system, the organization ensured that policies and procedures were revisited, enhanced
and modified in the past 4 years of the project life.

In the course of CDP Program, CADG realized the necessity to train the personnel to enhance the staff’s
awareness of the USAID Regulations, internal policies and procedures, and accordingly conducted
several training forums for the Afghanistan team, as well as for Singapore team members, on and offsite.
These training sessions took place in 2009, 2010, 2011 and 2012, and we have provided documentary
evidence to the auditors to demonstrate such.




                                                     75
                                                                                                                 14
                                                                                         APPENDIX B


                          CENTRAL ASIA DEVELOPMENT GROUP, INC.
                                Financial Audit of Costs Incurred under
                           Cooperative Agreement No. 306-A-00-09-00511-00
                                       Findings and Responses
                                              (Continued)


2013-7: Lack of Support for Transferred, Donated and Damaged Assets

Management Response:

In accordance with the Cooperative Agreement, all fixed assets of the CDP Program were either donated
to the Governmental agencies of Afghanistan or transferred to other USAID implementers. The CDP
team was aware of the USAID requirement to communicate disposition of the property with the
Agreement Officer’s Technical Representative (AOTR), who must support the property disposition plan.
The team also knew that before disposition of an asset with a market value above USD 5,000 (e.g.
generators), CADG had to seek approval from the Agreement Officer.

During the closure of the Provincial Offices and the overall Program, our Senior Management in the
country was in constant communication with USAID – Afghanistan, to make sure that disposition of any
property was done properly and according to all relevant procedures. All assets with market value more
than USD 5,000 were donated with prior AO’s approval. Approval will be sent in separate emails due to
the size of the files.

The damaged assets such as the three generators mentioned in the report, were used for several years
and became damaged and ultimately broken due to the harsh environment of the country. However, the
CDP team did not dispose them. The generators were kept in the offices because there was the potential
that they could be fixed. As the CDP program had generators from other closed provinces, the
management decided not to spend additional funds fixing the generators, but instead replaced them with
generators in working condition.

During the closure of the program, the Afghan Government in the respective provinces was ready to
accept the generators despite their broken condition. They had intention to repair them, and use them in
the future. USAID - Afghanistan also advised CADG to transfer some broken generators to another
USAID Implementer who also planned to repair these generators for future programs. With the AO’s
approval, the broken generators were also donated or transferred. AO’s approval letters are in the CADG
office, and will be sent separately.

CADG tracked its fixed assets in the Centralized Database. The IT System Administrator travelled
around the provinces to check and tag the assets as well as to update and maintain the database. There
were some delays in updates due to the risky security situation resulting in flight restrictions between the
provinces.

As CADG was closing provinces, the generators were moved to Kandahar or Kabul. Later they were
donated or transferred. We will provide supportive documents proving that the assets listed above were
not missing but donated to the Governmental agencies of Afghanistan or transferred to other USAID
Implementers.

Please find attached Appendices C, D & E, which is the supporting documentation relating to the
Damaged and Donated Assets outlined in the comments above.

                                                    76
                                                                                                               15
                                                                                      APPENDIX B


                         CENTRAL ASIA DEVELOPMENT GROUP, INC.
                               Financial Audit of Costs Incurred under
                          Cooperative Agreement No. 306-A-00-09-00511-00
                                      Findings and Responses
                                            (Continued)


2013-8: Advances Not Maintained in an Interest Bearing Account

Management Response:

CADG was aware of the Code of Federal Regulations (CFR) - 22 CFR 226.22 requirements related to
maintaining advances of Federal Funds in an interest bearing account. In fact, it does maintain an
interest bearing account in Wachavio Bank (Wells Fargo) which was used to hold the program income for
another USAID cooperative agreement awarded to CADG between 2002 to 2006.

CADG established a specific policy for this cooperative agreement that all advances of Federal Funds
were immediate so that it met the cash requirements of the program in a timely manner. It was not
commercially feasible and viable for CADG to maintain the drawdown amounts in an interest bearing
bank account. As such, CADG was exempted from the requirement under 22 CFR 226.22 - where the
depository would require an average or minimum balance so high that it would not be feasible within the
expected Federal and non-Federal cash resources.

CADG’s policy was to ensure that USAID Drawdowns was limited to the minimum amounts needed and
be timed to be in accordance with the actual, immediate cash requirements of CADG in carrying out the
purpose of CDP. The timing and amount of drawdowns was as close as was administratively feasible to
the actual disbursements by CADG for the direct project costs and the proportionate share of any
allowable indirect costs.

Once funds were available in the DHHS PMS, the authorised person from CADG, requested funds
(drawdown) electronically from DHHS through the internet. Each fund request was closely estimated so
as not to exceed the CADG’s immediate disbursement needs.

Upon receipt of the funds, CADG immediately transferred the funds to the various bank accounts
(Standard Chartered Bank, Afghanistan International Bank (AIB), Kabul Bank) in Afghanistan and
Singapore (HSBC) to meet the project requirements, including the predetermined allowable indirect
costs.

CADG was fully responsible to ensure that even though the immediate transfer of the drawdown funds to
the respective project locations needed to occur within the stipulated timeline, the security risks and
operational challenges including bank holidays, bank strikes, internal issues with banks not having
sufficient cashflow had to be considered. CADG’s senior management, including the country managers,
was consulted before any tranches of funds were sent out. This was to safeguard federal funds against
any loss and/or misappropriation of monies.

Such unforeseen delays resulted in minimum monthly advance cash on hand which was then multiplied
by the monthly Federal Reserve Rate and resulted in an estimated loss of interest income of US$9,613.
This amount needs to be further adjusted as the monthly bank service fees for not keeping the minimum
amount in the interest bearing account would have been on average about US$50 per month multiplied
by 52 Months (March 2009 to June 2013) totalling US$2,600.00 in bank service fees. Moreover, an
excess activity fee may apply for each transaction that exceeds the limit of certain types of withdrawal
and transfer transactions made out of the interest bearing account, usually maximum combined total of
six (6) per month or monthly statement period.

                                                  77
                                                                                                           17
                                                                                   APPENDIX B


                        CENTRAL ASIA DEVELOPMENT GROUP, INC.
                              Financial Audit of Costs Incurred under
                         Cooperative Agreement No. 306-A-00-09-00511-00
                                     Findings and Responses
                                           (Continued)



For this cooperative agreement to run well, CADG required a versatile and low-cost current account
suitable for businesses with high transaction volume and advanced Treasury Management needs
whereby wire transfers can occur hassle-free with minimum bank charges incurred without the need to
worry about keeping the minimum daily balances and average collected balances.




                                                 78
                                                                                                      18
                                                                                       APPENDIX B


                         CENTRAL ASIA DEVELOPMENT GROUP, INC.
                               Financial Audit of Costs Incurred under
                          Cooperative Agreement No. 306-A-00-09-00511-00
                                       Findings and Responses
                                             (Continued)


2013-9: Unallowable Costs Were Charged to the Agreement

Management Response:

We do not agree with the audit findings that CADG had charged unallowable costs to the agreement. We
wish to highlight that for costs to be allowable, a cost shall be necessary and reasonable for the proper
and efficient administration of the program. Our explanations as why the “unallowable costs” as
determined by the audit should be allowable are as follows:

  a) The penalty for the reissued visa amounting to S$461 was in respect of the initial visa that was
     issued but had to be cancelled due to unforeseen changes in the travel arrangements of the
     traveller. Travel changes were at times unpredictable especially when the project personnel were
     required to be on the site on immediate purposes. Such rigorous circumstances are truly reflective
     of the dynamics of the project and therefore cannot be regarded as a violation of, or failure of, the
     contractor to comply with laws and regulations. Hence such costs are reasonable and allowable
     costs as they have been incurred in the course of running the project effectively and efficiently.

  b) The “Gifts” of U$45 are made up of the following two expenses:-
     - Purchase of chocolates for US$30 for the project personnel for the Eid al-Fitr (Feast of
        Breaking the Fast) which marks the end of the month of Ramadan
     - Purchase of flowers and turban (religious, culture and a mark/symbol of respect) for US$15 for
        a local ceremony and celebrations.


      Classifying the above expenditure as “gifts” will not be correct.

      To work closely with people and to gain their trust within the communities, CADG practices culture
      sensitivity and in doing so incurred a small amount of reasonable and acceptable expenses. Such
      expenses are core to CADG and USAID’s mission to accomplish results sustainably and cost-
      efficiency and bringing more Afghans back into economic and civic life, leading to the successful
      implementation of the project.

      Hence, these expenses shall not be considered as “gifts” and therefore will not fall in the category
      of 48 CFR 31.205-13 – Employee morale, health, welfare, food service , and dormitory costs and
      credits, states, in part: “ ….(b) Costs of gifts are unallowable….”

  c) The “Ceremony” expense of US$890 was questioned because of the error in classifying the
     expenditure as “Ceremony”. The amount was incurred as a meeting expense for approximately
     200 people consisting of various stakeholders such as representatives from the
     communities/villages, local government agencies personnel and CADG Personnel. Such meetings
     are imperative for the stakeholders to discuss and share with the beneficiaries the objectives and
     deliverables of the CFW works as part of fruitful and effective implementation.

                                                    79
                                                                                                             19
                                                                             APPENDIX B


                  CENTRAL ASIA DEVELOPMENT GROUP, INC.
                        Financial Audit of Costs Incurred under
                   Cooperative Agreement No. 306-A-00-09-00511-00
                              Findings and Responses
                                     (Continued)



One of the main objectives of such meetings was to encourage and work closely with the Afghan
people to lay the foundation that enabled a successful transition from a donor-supported economy
to one driven by Afghan growth and ingenuity. Such investments in human capital make the
country less vulnerable to insurgents and illicit business and more attractive to private-sector
enterprise. Hence, the above expense is considered as reasonable and allowable for the proper
and efficient administration of the program.




                                           80
                                                                                                   20
                                                                                         APPENDIX B


                          CENTRAL ASIA DEVELOPMENT GROUP, INC.
                                Financial Audit of Costs Incurred under
                           Cooperative Agreement No. 306-A-00-09-00511-00
                                       Findings and Responses
                                              (Continued)


2013-10: Lack of Adherence to Policies and Procedures

Management Response:

As per our assertion outlined in Item 2013-6, CADG identified in the early stages of CDP, the importance
to conduct regularly training to all personnel involved in the program, inclusive of staff in Singapore, and
Afghanistan. It was clearly essential to train the personnel to enhance their awareness of the USAID
Regulations, internal policies and procedures, and accordingly conducted several training forums for the
Afghanistan team, as well as for Singapore team members, on and offsite. These training sessions took
place in 2009, 2010, 2011 and 2012, and we have provided documentary evidence to the auditors to
demonstrate such.

In addition to formalized training sessions as outlined above, informal training would take place on a
regular basis with team members over the phone or skype, or in person when team members from
Singapore went into Afghanistan, or when staff based in Afghanistan, would travel o Singapore.




                                                    81
                                                                                                               21
                                                                                          APPENDIX B


                          CENTRAL ASIA DEVELOPMENT GROUP, INC.
                                Financial Audit of Costs Incurred under
                           Cooperative Agreement No. 306-A-00-09-00511-00
                                        Findings and Responses
                                              (Continued)


2013-11: Lack Adherence to Employment Policy for Local Afghans


Management Responses:

While CADG had an official Local National Recruitment and Termination policy in place through most of
the CDP program (and a basic one in our Policy for LN contractors before that), due to nature and
location of the work, strict adherence to the policy was not always practical. The majority of the
individuals placed on contracts were for low level positions such as cooks, security guards, cleaners,
local supervisors, etc. These were positions for which candidates were “a dime, a dozen.” The
individuals hired were normally recommended and / or related to existing staff (senior leadership
positions such as Cash for Work Supervisors and DPMs).

Due to the tribal culture and the high illiteracy rate prevalent in Afghanistan, the PMs and DPMs had to
rely on recommendations and word of mouth in order to advertise and fill required positions. Because of
this, background checks were not always easily done. While it was not impossible to complete
background checks, it was difficult and could have jeopardized our relationships with the Local
Nationals. Due to the tribal culture and the status held by certain individuals in a given village, attempt to
conduct a background check could have been seen as questioning their integrity which could have
hindered our success in the area.

While there were some steps that were not always followed in the recruitment phase of the hiring
process for LNs, our in-country LN administration staff ensured the proper documentation and approval
was given before any contract was issued. Our Local Nation Administration Manager ensured that all
contractors hired provided a certificate of employment from their previous employer, a copy of the
Tazkira (Government issued card with verified relevant personal data), and that CADG HR gave their
approval for the position and salary offered. As for the termination of the LN contractors, the LN staff
ensured that terminations were also done in accordance with Afghan Labour Laws and that appropriate
payments were made in lieu of notice periods.

All PM’s and DPM’s were briefed and constantly reminded of the procedures involved with the hiring of
LNs. Unfortunately, due to the size of the program during Phase III (November 2010 – September 2011),
it was almost impossible to ensure sufficient compliance with the hiring of LN contractors. During this
time there were more than 2000 Local National contracted; with several being hired and terminated each
month. It was not until the later stages of Phase IV (April 2012 – December 2012) that the number of
Local Nationals being hired and terminated obtained a level that could better be managed by Singapore
and Senior Program Management staff who were then better able to enforce the Recruitment and
Termination Policy.




                                                     82
                                                                                                                 22
                                                                                      APPENDIX B


                         CENTRAL ASIA DEVELOPMENT GROUP, INC.
                               Financial Audit of Costs Incurred under
                          Cooperative Agreement No. 306-A-00-09-00511-00
                                      Findings and Responses
                                            (Continued)


Employee Performance Evaluations

With specific reference to formal performance evaluations being conducted for Local Nationals, CADG
acknowledges that such a formal process was not strictly enforced from an overall project perspective.
However the immediate Manager, Deputy Provincial Manager and at times the Provincial Manager,
would provide feedback to the employee regarding their performance and areas where they are
excelling, and in areas where improvement was required.




                                                  83
                                                                                                         23
                                                                                              APPENDIX C
                          CENTRAL ASIA DEVELOPMENT GROUP, INC.

                                Financial Audit of Costs Incurred under
                           Cooperative Agreement No. 306-A-00-09-00511-00

                          Auditors’ Rebuttal to CADG’s Responses to Findings

                          For the Period March 12, 2009 through June 30, 2013


2013-1: Lack of Adequate Control Over Cash-for Work (CFW) Laborer’s Attendance and
Payment Reconciliations

CADG partially disagrees with the finding, stating that since the amount questioned due to theft was
returned to USAID on November 15, 2013 and the expense was not claimed as a direct expense, no
overhead expenses were incurred and the associated overhead costs should not be questioned.
These expenses are classified as “Program costs – Cash-for-Work” on the Fund Accountability
Statement which is a direct expense. The fact that the questioned amount was returned to USAID after
our audit period does not prevent the questioning of the associated overhead costs since CADG draws
funds on an advance basis. As such, the overhead expenses associated with these costs should be
repaid in addition to the direct expenses. The direct expenses returned to USAID on November 15,
2013 remain questioned so that USAID can confirm the amount related to the theft in Zabul was in fact
received. Our finding and recommendation remains unchanged.


2013-2: Lack of Cost Analysis to Determine Whether Lowest Priced Airfare was Incurred

CADG disagrees with the finding and recommendation due to various reasons. CADG indicated it used
travel management companies to conduct the purchase of airfares throughout the project. These travel
management companies were awarded contracts and are allowable under Federal Acquisition
Regulation (FAR) 31.205-46. The use of travel agencies when purchasing airfare is allowable per the
FAR. The contracts of these travel management companies were not provided to us during the audit.
As such, we were unable to determine whether the contract included language that required the
company to utilize the lowest priced airfare. The documentation attached to the support for the
expense did not include any justification that these prices met the criteria stated within the finding.

CADG negotiated agreements with Dubai-Afghanistan charter carriers with discounted fares and waiver
of penalties for changes or cancellations. We requested supporting documentation for the chartered
airfares incurred during the audit, but were not provided with an agreement. As such, we were unable
to determine whether the fares paid represented the lowest fare available.

Utilization of a CADG-leased plane occurred during the audit period. CADG would fly to most locations
where other charter flights would not fly, due to the lack of military ramps or security issues. In addition,
CADG stated that it would not have attracted such a high volume of business if the prices of its CADG-
leased plane had been excessive. We requested supporting documentation for the calculation of the
fares for the CADG-leased plane, but no documentation was provided. There were other organizations
utilizing the CADG-leased plane during the audit period. However, the volume of business did not
support a statement that the fares were reasonably priced.

Lastly, CADG states that safety was a main concern when selecting airlines to fly employees and local
Afghans. It adhered to the State Department website that states U.S. government personnel are not
permitted to travel on most Afghan airlines due to ongoing safety concerns and the lack of Afghan



                                                     84
                                                                                            APPENDIX C
                         CENTRAL ASIA DEVELOPMENT GROUP, INC.

                               Financial Audit of Costs Incurred under
                          Cooperative Agreement No. 306-A-00-09-00511-00

                          Auditors’ Rebuttal to CADG’s Responses to Findings

                                               (Continued)


government safety oversight capabilities. This statement is made on the State Department’s website
and is applicable to U.S. government personnel. The State Department’s website does provide the
option of flying on other air carriers that fly into and out of Afghanistan that do not meet FAA standards.
Our finding and recommendation remains unchanged.


2013-5: Lack Adherence to Timesheet Policy and the Terms of Employment Contract

CADG partially disagrees with the finding and recommendation and provided a summary of the
timekeeping process for the local nationals. This process was formalized in April 2012. During our
audit, we followed the formalized policies during the period the expense was incurred. Based on these
policies, the testing provided multiple exceptions as noted.

CADG states that additional information was provided to us that should have reduced questioned costs
associated with the local nationals. We did receive additional documentation and have reanalyzed the
documentation provided. We noted that there was some additional information provided that we should
take into consideration for the questioned transactions. We reevaluated this additional documentation
and determined that the questioned costs, including associated indirect costs, should be reduced by
$59,742. As such, we have revised the questioned costs related to Finding 2013-5.


2013-6: Lack of Adherence to Procurement Procedures

CADG partially disagrees with the finding and recommendation by stating that the key documentation to
support that the items were paid, received and benefitted the program were presented to the auditor.
The policies and procedures were enhanced and modified throughout the life of the project. This was
evident by the five different finance policies and procedures obtained during the audit, with each being
more specific than the previous policy. However, the audit followed the formalized policies that were in
place during the period the expense was incurred. Without all of the relevant information prescribed in
the policies and regulations, there was an insufficient audit trail to determine whether the goods and/or
services procured were reasonable, allowable and allocable. Our finding and recommendation remains
unchanged.


2013-7: Lack of Support for Transferred, Donated and Damaged Assets

CADG disagrees with the finding and recommendation by stating that all assets over the $5,000
threshold that were transferred or donated did have the Agreement Officer’s approval prior to the
transfer or donation. During the audit fieldwork, we requested approval of the Agreement Officer to
document that these transfers and donations were approved prior to the move. However, no
documentation was provided prior to the end of our review. CADG provided additional documentation
related to this finding with its management response. This additional support was not reviewed as it



                                                    85
                                                                                          APPENDIX C
                        CENTRAL ASIA DEVELOPMENT GROUP, INC.

                               Financial Audit of Costs Incurred under
                          Cooperative Agreement No. 306-A-00-09-00511-00

                         Auditors’ Rebuttal to CADG’s Responses to Findings

                                              (Continued)


was provided after the documentation cutoff date. We also requested the communication of damaged
assets to USAID. No such communication was provided for our review during fieldwork. Our finding
and recommendation remains unchanged.


2013-8: Advances Not Maintained in an Interest Bearing Account

CADG disagrees with the finding and recommendation stating that it was not feasible to maintain funds
in an interest bearing account due to the need to access the funds in a timely manner. However, there
are many types of interest bearing accounts that maintain its liquidity that CADG could have utilized.
Also, prior approval from USAID should have been obtained if CADG believed that depositing the funds
into an interest bearing account was not practical.

CADG also states they are exempt from 22 CFR 226.22 because the depository would require an
average or minimum balance so high that it would not be feasible within the expected Federal and non-
Federal cash resources. 22 CFR 226.22 does provide for three different exemptions from this
requirement, but CADG was unable to provide any documentation during audit fieldwork to substantiate
that it was exempt from this requirement. Our finding and recommendation remains unchanged.


2013-9: Unallowable Costs Were Charged to the Agreement

CADG disagrees with the finding and recommendation for various reasons. It states that the $461
penalty for a reissued visa was incurred because of a cancellation of travel due to unforeseen changes
in arrangements of the traveler. Travel plans were often unpredictable with regard to project personnel.
Penalties are not allowable under 48 CFR 31.205-15 unless they were approved by the Agreement
officer. However, USAID approval was not provided for our review.

CADG does not consider the $45 as gifts. The chocolate, flowers and turbans purchased were for local
ceremonies and the end of Ramadan. CADG states that they must practice culture sensitivity and earn
the trust within the communities in order to be effective in its program. The 48 CFR 31.205-13
specifically states that costs of gifts are unallowable. We consider these to be gifts to the community,
as well as local staff.

CADG stated that the $890 ceremony expense was incorrectly described as a ceremony. Rather the
expense was incurred for a stakeholder meeting to discuss the project and distribute deliverables of the
CFW program. However, the documentation supporting the expense does not detail an agenda of
items to be discussed during this meeting. It is not evident that the meeting’s purpose was to discuss
the project and distribute deliverables.

Our finding and recommendation remains unchanged.




                                                  86
                                                                                          APPENDIX C
                        CENTRAL ASIA DEVELOPMENT GROUP, INC.

                               Financial Audit of Costs Incurred under
                          Cooperative Agreement No. 306-A-00-09-00511-00

                         Auditors’ Rebuttal to CADG’s Responses to Findings

                                              (Continued)


2013-10: Lack of Adherence to Policies and Procedures

CADG partially disagrees with the finding and recommendation by stating that there was sufficient
training of staff, both in Singapore and Afghanistan, regarding the policies and procedures of CADG.
The formal training sessions were performed each year, as well as informal training provided on a
regular basis. Even with the training provided, CADG’s policies and procedures were not properly
followed as noted in the finding. Therefore, more in depth training should be conducted to ensure all
personnel are aware of and follow the policies and procedures. Our finding and recommendation
remains unchanged.


2013-11: Lack Adherence to Employment Policy for Local Afghans

CADG partially disagrees with the finding and recommendation by stating that due to the nature and
location of the work, strict adherence to the local national recruitment and termination policy were not
practical. A majority of the local Afghans were illiterate and CADG relied on recommendations from
other employees and word of mouth to fill positions needed. In addition, the in-country local nationals
ensured that proper documentation and approval was given prior to any contract being issued. There
was no documentation provided to support that CADG had followed its hiring and termination policy.
Our finding and recommendation remains unchanged.




                                                  87
                               The mission of the Special Inspector General for Afghanistan
           SIGAR’s Mission     Reconstruction (SIGAR) is to enhance oversight of programs for the
                               reconstruction of Afghanistan by conducting independent and
                               objective audits, inspections, and investigations on the use of
                               taxpayer dollars and related funds. SIGAR works to provide accurate
                               and balanced information, evaluations, analysis, and
                               recommendations to help the U.S. Congress, U.S. agencies, and
                               other decision-makers to make informed oversight, policy, and
                               funding decisions to:
                                        •   improve effectiveness of the overall reconstruction
                                            strategy and its component programs;
                                        •   improve management and accountability over funds
                                            administered by U.S. and Afghan agencies and their
                                            contractors;
                                        •   improve contracting and contract management
                                            processes;
                                        •   prevent fraud, waste, and abuse; and
                                        •   advance U.S. interests in reconstructing Afghanistan.


  Obtaining Copies of SIGAR    To obtain copies of SIGAR documents at no cost, go to SIGAR’s Web
   Reports and Testimonies     site (www.sigar.mil). SIGAR posts all publically released reports,
                               testimonies, and correspondence on its Web site.




To Report Fraud, Waste, and    To help prevent fraud, waste, and abuse by reporting allegations of
                               fraud, waste, abuse, mismanagement, and reprisal, contact SIGAR’s
      Abuse in Afghanistan     hotline:
   Reconstruction Programs
                                        •   Web: www.sigar.mil/fraud
                                        •   Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                        •   Phone Afghanistan: +93 (0) 700-10-7300
                                        •   Phone DSN Afghanistan: 318-237-3912 ext. 7303
                                        •   Phone International: +1-866-329-8893
                                        •   Phone DSN International: 312-664-0378
                                        •   U.S. fax: +1-703-601-4065




                               Public Affairs Officer
              Public Affairs
                                        •   Phone: 703-545-5974
                                        •   Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                        •   Mail: SIGAR Public Affairs
                                            2530 Crystal Drive
                                            Arlington, VA 22202
